<html>
<title> - HOUSING OPTIONS IN THE AFTERMATH OF HURRICANES KATRINA AND RITA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                    HOUSING OPTIONS IN THE AFTERMATH
                     OF HURRICANES KATRINA AND RITA

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 14, 2006

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 109-70

                    U.S. GOVERNMENT PRINTING OFFICE
27-793                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
RICHARD H. BAKER, Louisiana          PAUL E. KANJORSKI, Pennsylvania
DEBORAH PRYCE, Ohio                  MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             MELVIN L. WATT, North Carolina
ROBERT W. NEY, Ohio                  GARY L. ACKERMAN, New York
SUE W. KELLY, New York, Vice Chair   DARLENE HOOLEY, Oregon
RON PAUL, Texas                      JULIA CARSON, Indiana
PAUL E. GILLMOR, Ohio                BRAD SHERMAN, California
JIM RYUN, Kansas                     GREGORY W. MEEKS, New York
STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, Jr., North          MICHAEL E. CAPUANO, Massachusetts
    Carolina                         HAROLD E. FORD, Jr., Tennessee
JUDY BIGGERT, Illinois               RUBEN HINOJOSA, Texas
CHRISTOPHER SHAYS, Connecticut       JOSEPH CROWLEY, New York
VITO FOSSELLA, New York              WM. LACY CLAY, Missouri
GARY G. MILLER, California           STEVE ISRAEL, New York
PATRICK J. TIBERI, Ohio              CAROLYN McCARTHY, New York
MARK R. KENNEDY, Minnesota           JOE BACA, California
TOM FEENEY, Florida                  JIM MATHESON, Utah
JEB HENSARLING, Texas                STEPHEN F. LYNCH, Massachusetts
SCOTT GARRETT, New Jersey            BRAD MILLER, North Carolina
GINNY BROWN-WAITE, Florida           DAVID SCOTT, Georgia
J. GRESHAM BARRETT, South Carolina   ARTUR DAVIS, Alabama
KATHERINE HARRIS, Florida            AL GREEN, Texas
RICK RENZI, Arizona                  EMANUEL CLEAVER, Missouri
JIM GERLACH, Pennsylvania            MELISSA L. BEAN, Illinois
STEVAN PEARCE, New Mexico            DEBBIE WASSERMAN SCHULTZ, Florida
RANDY NEUGEBAUER, Texas              GWEN MOORE, Wisconsin,
TOM PRICE, Georgia                    
MICHAEL G. FITZPATRICK,              BERNARD SANDERS, Vermont
    Pennsylvania
GEOFF DAVIS, Kentucky
PATRICK T. McHENRY, North Carolina
CAMPBELL, JOHN, California

                 Robert U. Foster, III, Staff Director
           Subcommittee on Housing and Community Opportunity

                     ROBERT W. NEY, Ohio, Chairman

GARY G. MILLER, California, Vice     MAXINE WATERS, California
    Chairman                         NYDIA M. VELAZQUEZ, New York
RICHARD H. BAKER, Louisiana          JULIA CARSON, Indiana
WALTER B. JONES, Jr., North          BARBARA LEE, California
    Carolina                         MICHAEL E. CAPUANO, Massachusetts
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont
PATRICK J. TIBERI, Ohio              STEPHEN F. LYNCH, Massachusetts
GINNY BROWN-WAITE, Florida           BRAD MILLER, North Carolina
KATHERINE HARRIS, Florida            DAVID SCOTT, Georgia
RICK RENZI, Arizona                  ARTUR DAVIS, Alabama
STEVAN, PEARCE, New Mexico           EMANUEL CLEAVER, Missouri
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
MICHAEL G. FITZPATRICK,              BARNEY FRANK, Massachusetts
    Pennsylvania
GEOFF DAVIS, Kentucky
CAMPBELL, JOHN, California
MICHAEL G. OXLEY, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    January 14, 2006.............................................     1
Appendix:
    January 14, 2006.............................................    65

                               WITNESSES
                       Saturday, January 14, 2006

Bolen, Dianne, Executive Director, Mississippi Home Corporation..    16
Bowling, Sheri Cox, Director, Disaster Response Coordinator, 
  Diocese of Biloxi, Catholic Social and Community Services......    36
Clark, Rodger, Executive Director, Bayou Gulf States Chapter, 
  Paralyzed Veterans of America..................................    34
Davis, Lanelle, Executive Director, Housing Authority of the City 
  of Long Beach, Mississippi.....................................    38
Davis, Wallace, Chief Executive Officer, Volunteers of America-
  Southeast......................................................    39
Eide, Phil, Enterprise Corporation of the Delta..................    41
Griffin, Cynthia P., Executive Director, Habitat for Humanity/
  Metro Jackson..................................................    42
Johnson, Derrick, President, Mississippi NAACP...................    44
Jones, Rev. Carlton L., Second Sweet Home Church, Gulfport, 
  Mississippi....................................................    49
Nicks, Shantrell, attorney and local resident....................    46
Russo, James N., Federal Coordinating Officer for DR-1604-MS, 
  Federal Emergency Management Agency, Department of Homeland 
  Security.......................................................    12
Smith, Dr. Gavin, Director, Office of Recovery and Renewal, 
  Office of Governor Haley Barbour...............................     9
Walters, Nick, Mississippi Rural Development State Director, USDA    13
Warr, Hon. Brent, Mayor, City of Gulfport, Mississippi...........     6
Williams, Charles H., Deputy Assistant Secretary, Multifamily 
  Housing, Department of Housing and Urban Development...........    15
Williams, Rev. Rosemary, Mount Zion United Methodist Church......    48

                                APPENDIX

Prepared statements:
    Bolen, Dianne................................................    66
    Bowling, Sheri Cox...........................................    72
    Clark, Rodger................................................    74
    Davis, Lanelle...............................................   114
    Davis, Wallace...............................................   120
    Griffin, Cynthia P...........................................   129
    Johnson, Derrick.............................................   131
    Jones, Rev. Carlton L........................................   135
    Nicks, Shantrell.............................................   137
    Rayburn, Bobby...............................................   140
    Russo, James N...............................................   147
    Smith, Dr. Gavin.............................................   159
    Walters, Nick................................................   163
    Warr, Hon. Brent.............................................   171
    Williams, Rev. Rosemary......................................   177

              Additional Material Submitted for the Record

Hon. Robert Ney:
    Letter from Bechtel..........................................   180


                    HOUSING OPTIONS IN THE AFTERMATH
                     OF HURRICANES KATRINA AND RITA

                              ----------                              


                       Saturday, January 14, 2006

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 9:20 a.m., in 
the City Council Chambers, City Hall, 2309 15th Street, 
Gulfport, Mississippi, Hon. Bob Ney [chairman of the 
subcommittee] presiding.
    Present: Representatives Ney, Waters, Lee, Green, Cleaver, 
Watson, Melancon, Taylor and Thompson.
    Chairman Ney. We meet this morning to continue this 
discussion of the Federal Government's response to the 
emergency housing needs of the residents affected by Hurricanes 
Katrina and Rita.
    This is the first field hearing held in Gulfport, 
Mississippi, since Hurricanes Katrina and Rita struck the Gulf 
shores late last summer. Yesterday was the first hearing, 
official U.S. House hearing, held in New Orleans.
    I am going to submit my opening statement because we do 
want to hear from you. We have a couple of important panels and 
I would appreciate it if the members would do the same thing.
    We are going to hold strictly to the time limit here. I 
need to explain that for people who have not been to a House 
hearing. This will be an official hearing of the U.S. House 
Subcommittee on Housing and Community Opportunity. We will give 
you 5 minutes. If we do not have a light system, I will just 
give a light love tap here and then you can wrap up your 
statements. And we will leave the record open, since people 
might want to ask questions, for 30 days. The members have 5 
minutes to offer opening statements and then 5 minutes to ask 
questions and your response time. So please hold to that.
    And then also we do ask that although there is a lot of 
enthusiasm and passion on these issues, not to show your 
happiness by clapping or your sadness by booing. So just--you 
can murmur a bit, we do not mind that.
    But I want to thank the Mayor. We had a discussion in 
Washington, D.C., awhile back about doing this here for the 
people. Mayor, thank you for hosting us and for the nice 
hospitality your staff has shown us here. Also, Governor Haley 
Barbour's staff person was on the bus with us today; we 
appreciated that.
    I want to thank all the members of the Mississippi and 
Louisiana delegations who took the time to attend today's 
hearing. And again, we want to hear from you. This is a 
terrible trauma that has happened to the people of the Gulf 
States.
    With me today are, of course, many members who will 
identify themselves and I want to thank these members for 
taking the time to come across the country
    I also want to assure you that since the day this has 
happened, we have focused on these issues. We may be from other 
States, but it is one Nation and we have to help each other; we 
are concerned about our fellow human beings. We have been on 
this, we have had meeting after meeting in the Capitol; also 
hearings and meetings with FEMA and HUD when problems arise, 
when we hear from local officials or Members of Congress from 
these affected States, like Louisiana and Mississippi. We have 
been working on it. Our ranking member, Maxine Waters, whom you 
will hear from in a second, is from California, and she has 
done a fine job on many, many issues in the subcommittee.
    Our Full Committee Chairman, Mike Oxley from Ohio, and the 
Ranking Member, Barney Frank from Massachusetts, all of these 
individuals and the members--our ranking member, as I 
mentioned, Maxine Waters, have done an unbelievable job to 
effect some legislation to try to help and try to reach out to 
people who are in the greatest need of their lifetime after 
this most catastrophic disaster that this Nation, I think, has 
ever seen.
    Not leaving the least for last, my colleague Mr. Taylor 
here, who has done a wonderful job. Thank you for having us. 
You hear about these, we have seen them on TV, but until you 
come--we were on a bus with the gentleman from Mississippi Mr. 
Taylor, and we saw first hand, it is an amazing picture that 
you see on the ground, it is absolute devastation. There is 
such a spirit here of people trying to pick up the pieces and 
go on. Thank you, Congressman Taylor, on behalf of all our 
colleagues for being here.
    And I just want to point out another thing about Mr. Taylor 
that you will not see in the papers. When this happened, he 
lost a couple of district offices, I can remember his people 
and he were right on the phone, they wanted the services back 
up so they could help people. They knew people would be 
reaching out and need to find them. And his people had a 
tenacity that I appreciated quite a lot and they really were 
out there, first concern was not themselves and the houses they 
had lost; the first concern was what they could do to make sure 
that they could reach out to the people that were affected. 
Thank you and your staff for that.
    With that, I am going to yield to our distinguished ranking 
member, Maxine Waters.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I want to take a moment to thank you for your leadership 
and thank you for having the vision and the concern that helped 
to bring this hearing to the Gulf Coast. This is extremely 
important and let me just share with you that not only are we 
the first official committee holding a hearing in the Gulf 
Coast region, but I am concerned that only 60 Members of 
Congress have been to the Gulf Coast since Hurricanes Katrina 
and Rita. And when we go back to Washington next week, we will 
make it known that the Members of Congress should come and see 
for themselves. The pictures on television and the pictures in 
the newspapers do not adequately describe the extent of the 
devastation that we have seen in Louisiana, in the New Orleans 
area, and today in Mississippi.
    I am thankful to all of my colleagues for being here today, 
and particularly thankful to Mr. Taylor and Mr. Thompson from 
Mississippi, both of whom have been strong advocates in the 
Congress of the United States, battling for resources and 
appropriations, but also trying to get the Members of Congress 
to understand how lives have been torn apart and how families 
have been devastated. So I thank them so very much for the 
leadership that they have shown.
    Mr. Mayor, we are very appreciative for your leadership and 
the time that you have taken and the fact that we are here in 
City Hall today.
    And we are very grateful to HUD for the assistance that 
they have given to us on these tours. They have made themselves 
available to us in an extraordinary way, and Mr. Chairman, they 
used the resources of their department to do this. I do not 
know whether we could have done as well without them.
    So I am here today, along with my Chairman and the other 
members, to hear from you, to let you know that yes, we have 
been doing a lot of work in Washington, D.C. This is the 
Housing Subcommittee of the Financial Services Committee. We 
are very concerned about housing. We have been concerned that 
everything from the temporary shelters to the trailers to the 
mobile homes, other kinds of efforts that should have been put 
together, may be being put together to house the families. And 
we are also very concerned about permanent housing. We are 
concerned about insurance companies and whether or not they are 
doing a good job. And we are concerned about our own government 
and what more we can do to make the transition from this 
catastrophe to ``normalcy'' a lot better for everybody.
    So we thank you all for having us here today and we are 
grateful for everything you do. I am going to yield back the 
balance of my time so we can get on with the hearing.
    Chairman Ney. I thank the gentlelady.
    We will go to our host Congressmen first of all.
    Mr. Taylor. Thank you, Mr. Chairman. I do want to thank all 
of my colleagues. Many in this room came from all across the 
Nation to be here. I want to thank so many elected officials 
that I spot, I would miss one or two. I see some Senators, 
State representatives, and city councilmen. We are very 
grateful that all of you are here.
    Chairman Ney--to brag on him, when we lost the two 
Congressional offices down here, within a week or so--he had 
bent the rules in order to get us temporary quarters. He 
actually allowed me to increase my staff size. I very much want 
to thank you for that.
    As you know, we have had an unprecedented disaster, we have 
had unprecedented requests for help. It was through him bending 
the rules that we were able to get some staffers down here for 
temporary offices. And I want to thank you for that.
    Mr. Sid Melton is here, Ms. Waters asked your counterpart 
in Louisiana--Sid Melton runs the FEMA trailer operation--and 
Ms. Waters had asked your counterpart in Louisiana a number of 
questions yesterday. And Sid, I know we have given you a very 
hard time for the past 120 days as we had about 36,000 
requests, even though today about 31,000 have been filled, I am 
still not happy that there are 5,000 people waiting.
    On the flip side, in Louisiana, something like 10 percent 
of the people who wanted a FEMA trailer have gotten the 
trailer. So even though we are not perfect here, we are doing a 
heck of a lot better than Louisiana and I want to recognize 
that you are doing a heck of a lot better than they are doing 
in Louisiana; so thank you for the 31,000 who do have a 
trailer.
    Again, I see a lot of people who have a lot of good things 
to tell us, a lot of things that we need to address, so I am 
going to yield back my time. But it would be shameful of me not 
to thank Chairman Ney for what he has done to help the people 
of south Mississippi. We now have temporary offices in Bay St. 
Louis, Gulfport; we had one in Ocean Springs, but we had to 
find other quarters. And that is because of his good work and 
really the kindness of your heart and I want you to know we 
very much appreciate that.
    Chairman Ney. The gentlelady from California.
    Ms. Lee. Thank you, Mr. Chairman. I do want to thank you 
and our ranking member for your leadership and vision and 
commitment in assuring that our work on this committee is 
bipartisan on behalf of the people of the Gulf region.
    Let me also say to Congressman Taylor and to Congressman 
Thompson, this devastation has been staggering, but the 
response--I mean your leadership in the community, the Mayor, 
all, has been extraordinary.
    What we saw briefly this morning driving in was very 
unbelievable. I come from California in an area that is prone 
to natural disasters--earthquakes, fires--but nothing like what 
we have witnessed in the last 2 days here.
    So I just wanted to commend all of you for your pulling 
together, ensuring the debris cleanup and the recovery process 
began immediately. I too am concerned and interested in how 
Federal agencies have coordinated around here together and with 
you, as well as I will be interested to hear about how the 
local residents have benefitted from the jobs for the 
reconstruction.
    I just want to thank again, Mr. Chairman and ranking 
member, Mr. Thompson and Mr. Taylor, for your leadership and 
just say that I look forward to working with you to see what we 
can do to make sure that we support the efforts that you have 
mounted.
    Thank you very much.
    Chairman Ney. Thank you. The gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman, and thank you, Ranking 
Member Waters.
    Friends, we hear so often that we want our elected 
officials to work together. Our chairman and our ranking member 
are doing it. And I think they do it so well that we ought to 
let them know how much we appreciate the way they do this. 
These persons are the example of excellence that we are looking 
for in Congressional representation and I think that an 
expression of appreciation would be in order at this time.
    [Applause]
    Mr. Green. When you are a neophyte in Congress, you can get 
away with things because you do not know any better. This is my 
first year--I just started my second year.
    [Laughter]
    Mr. Green. I do want to thank Congressman Taylor and 
Congressman Thompson for the exemplary leadership that they 
have provided as well.
    And I would simply like to say this in closing so that I 
can give back some of my time--the people of Mississippi are 
strong, you have great will, and you will rebuild. You rebuilt 
after Camille, the flood of 1927 did not stop you; and I assure 
you, Hurricane Katrina will not stop the people of Mississippi. 
And I want you to know that we are going to do what we can to 
be of assistance. I will work on behalf of the people of 
Mississippi.
    Thank you, Mr. Chairman. I yield back.
    Chairman Ney. Thank you. Congressman Cleaver.
    Mr. Cleaver. Yes. I would just like to express appreciation 
to you and to Ranking Member Waters and I will yield back the 
balance of my time. I will wait until we have the witnesses to 
ask questions.
    Thank you.
    Chairman Ney. Thank you. And this is not his district right 
here, but it is the same State, Congressman Thompson is a host 
for us and we want to thank you. Also thank you for all your 
interest; you, like Congressman Taylor and the other members of 
the Louisiana delegation have championed the issues up in 
Washington. Congressman Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, Ranking Member 
Waters, I have a written statement for the record that I will 
submit.
    But I would like to say that my role as ranking member on 
the Homeland Security Committee gives me specific 
responsibility for the Department of Homeland Security. The 
response to Katrina concerns me greatly, the adequacy of the 
response here is of significant concern, and I look forward to 
making sure that in any disaster in the future, the response is 
far more robust than what we had here.
    We are the Federal Government, we are the calvary. Our 
citizens need the cavalry in times of need. And I look forward 
to making sure that ability to respond is there and will be 
there as long as I am in Congress.
    I yield back.
    Chairman Ney. Thank you. The gentleman, Congressman 
Melancon from Louisiana.
    Mr. Melancon. Thank you, Mr. Chairman, Ranking Member 
Waters.
    It is good to be over here in Mississippi. For those of you 
who do not know me, my district basically surrounds the Orleans 
metropolitan area. My district was the first to take landfall 
from Katrina and the first to get a swipe back from Rita when 
she came by. That is Plaquemines, St. Bernard, lower Jefferson. 
What Katrina did not do to my district, Rita came back and took 
care of.
    As I was explaining to several members a few months ago, we 
have been through a lot of hurricanes along the Mississippi 
coast, along the Louisiana coast. This was not a traditional 
hurricane in the sense that the magnitude was just so much 
more, and greater than anything that I have ever seen in my 58 
years.
    The Louisiana situation has a lot of different problems 
than Mississippi's situation for getting back up on its feet, 
but both States and both areas have a long way to go and are 
doing well to try and get there.
    I commend you, Mayor, and the people of Mississippi for 
their efforts and also want to thank you, the people from 
Mississippi as well as people from Louisiana, for your help 
when the time came.
    Thank you and I yield back.
    Chairman Ney. Thank you. We also have Congresswoman Watson 
from California. She is not on detention from Congress.
    [Laughter.]
    Chairman Ney. She has done nothing wrong. She is a great 
member and has been with us now for 2 days of hearings. She is 
seated there because there was not enough space. Congresswoman 
Watson from California.
    [Ms. Watson indicates no comments.]
    Chairman Ney. Our first panel is Dr. Gavin Smith, Director, 
Office of Recovery and Renewal, Office of Governor Haley 
Barbour. Next is the Honorable Brent Warr, Mayor, City of 
Gulfport. Mr. James Russo, Federal Coordinating Officer, 
Federal Emergency Management Agency, FEMA, Department of 
Homeland Security. Mr. Nick Walters, Rural Development State 
Director, USDA. Mr. Hank Williams, Deputy Assistant Secretary, 
Multifamily Housing, Department of Housing and Urban 
Development. He has given us his time for the last 2 days and 
we appreciate it. And Ms. Dianne Bolen, Executive Director, 
Mississippi Home Corporation.
    We will start with the Mayor, the Honorable Brent Warr. 
Thank you.

  STATEMENT OF HONORABLE BRENT WARR, MAYOR, CITY OF GULFPORT, 
                          MISSISSIPPI

    Mr. Warr. Thank you very much.
    Mr. Chairman, Ranking Member Waters, distinguished members 
of Congress, thank you for your invitation to speak here today 
and for affording the City of Gulfport the opportunity to take 
part in the hearings to assess the housing options in the 
aftermath of Hurricane Katrina.
    Before I begin with my assessment and suggestions for 
improvements in housing, I would like to give a special thanks 
to Chairman Ney. Our conversation back in D.C., in our Nation's 
Capitol, I think back over fondly and I never knew that in a 
meeting like that, an opportunity like this would be the 
result. And I want to thank you so much for giving our city the 
honor of hosting this event.
    In all fairness, the unparalleled damage and destruction 
caused by Hurricane Katrina was so unimaginable that no single 
agency or organization could have possibly been prepared for a 
storm of this magnitude.
    The City of Gulfport is extremely grateful and appreciative 
to everyone at the local county, State, and Federal level for 
assisting in the recovery process. In particular, I would like 
to thank President Bush for his compassionate leadership, Vice 
President Cheney, Secretary Chertoff, Governor and Mrs. 
Barbour, and our distinguished Senators and Congressmen from 
Mississippi for their tireless efforts.
    We also owe a debt of gratitude to Colonel Joe Spraggins, 
director of the Harrison County Civil Defense, and the Harrison 
County Board of Supervisors for their leadership. Additionally, 
I would like to extend a special thanks to our Gulfport City 
Council for their hard work and dedication to the citizens of 
Gulfport, and we applaud the talents of our local law 
enforcement and municipal departments. Our recovery efforts are 
where they are today because of their unwavering determination 
to put our city back together.
    I took office as Mayor of the City of Gulfport on July 5, 
2005, and on that very same day, we signed our first State of 
Emergency due to the threat of Tropical Storm Cindy. While 
Cindy had little impact on south Mississippi, a few days later, 
the Gulf Coast was threatened once again with a much more 
powerful hurricane, Hurricane Dennis.
    On the Federal side, a call from the White House's 
Department of Intergovernmental Affairs on Sunday, August 28th, 
in preparation for Hurricane Katrina, began a relationship that 
placed Gulfport in good stead. Continuous direct communication 
with elected officials and their Administrations in Washington 
was extremely helpful and greatly appreciated. It was also on 
this Sunday, prior to Katrina, that I learned FEMA 
representative Mike Beeman was on his way to Gulfport. Beeman, 
who was assigned to Harrison County Emergency Operations 
Center, has been a tremendous asset to our recovery, and he 
certainly assisted our community with a great deal of knowledge 
and compassion.
    However, Mr. Beeman was assigned to the county and he was 
one man dealing with an overwhelming volume of devastation. A 
FEMA representative should have been on hand for each 
municipality, and this officer should be vested with authority 
to make real time decisions and the ability to cut through red 
tape in acquiring vitally needed assets. While FEMA guidelines 
suggest that each municipality should be assigned a Public 
Assistance Officer, the acronym is PAO, within 24 hours after 
the storm, Gulfport did not receive its PAO for many weeks.
    Our recommendations to this panel would be that we create a 
team of those who lived through this experience. They should be 
assembled to sit down and develop a play book, a real plan of 
real time preparation and solutions that could be followed to 
save many days and hundreds of millions of local and Federal 
dollars. This team should be challenged to do the following: 
develop an emergency plan for each city and any other populated 
areas; establish an organization of overall management and 
allocation of resources--commodities, volunteers and donations; 
create an asset management team or asset commander to allocate 
and move resources quickly and efficiently; and secure pre-
existing contracts for immediate needs such as water, ice, 
generators, lighting, portable showers, and bathrooms.
    There are many recommendations that could come with 
preparation for a storm, I guess, for the emergency needs, but 
you have come here to talk about housing.
    In the short-term housing perspective, prior to landfall, 
Harrison County had 19 shelters in place for storm evacuees. 
Three of those were in the Gulfport City limits, the others 
were in the county and the surrounding area nearby. Pre-storm, 
these shelters housed approximately 6,000 evacuees, while post-
storm, shelters have housed an average of 1,500 evacuees daily. 
Schools began to re-open and schools in Gulfport opened by 
October 1st. Shelters that were located at area schools were 
moved to local community and recreation centers. Gulfport 
housed two of these centers, the Gulf Coast Skate Park and the 
Good Deeds Community Center. The Skate Park location closed in 
November, while Good Deeds just recently closed, housing storm 
victims until the end of December.
    Temporary housing was an immediately concern for the City 
of Gulfport and for all the local municipalities from day one. 
Thousands of local residents were left without homes, while an 
overwhelming percent of homes were severely damaged. While no 
plan was in place for long-term sheltering or for temporary 
housing beyond the established pre-storm shelters, the City 
worked closely with County officials to begin identifying 
potential housing sites.
    Of the 13,000 county-wide requests for housing to date, 
close to 11,000 of those requests have been fulfilled, and the 
trailers are in place on numerous pieces of private property, 
in commercial trailer parks and in FEMA trailer sites 
throughout the county. The City of Gulfport currently has three 
FEMA sites for placement of travel trailers and mobile homes. 
The sites are as follows:
    Rippy Road contains today 41 travel trailers; Milner 
Stadium, 131 travel trailers; the VA Hospital at Gulfport 
property, 47 travel trailers and 64 mobile homes.
    The process, and the lengthy amount of time residents have 
had to wait to receive temporary housing has been a difficult 
issue. Of those 13,000 county-wide requests for temporary 
housing, there are approximately 2,500 people in Harrison 
County still waiting on trailers. However, the end result as we 
stand 5 months after the storm, we continue to have some 
families sleeping in tents on the grounds, children sleeping in 
their family's car and thousands who still have no place to 
call home.
    Some of the blame for the slow delivery of trailers can 
also be directed toward the city and county officials who 
failed to have long-term shelter and trailer sites in place. 
Because of this oversight, there has been extreme difficulty 
finding large areas of land that have not been developed, or is 
in the process of development. Therefore, the city and the 
county have been forced to seek out private property, and there 
has been a great deal of difficulty negotiating prices at GSA's 
suggested pre-storm market value. We all know that the market 
value of property prior to the storm is very different than the 
market value of property post-storm.
    In actuality, real estate is much more expensive and 
valuable post-storm, due to the emergent need for land and 
housing and owners have not been quick to sell or rent space at 
previously determined values.
    Furthermore, trailer delivery has been delayed due to the 
fact that many residents have requested the placement of 
trailers on wetland property. To acquire a trailer for such 
property, a resident must obtain a 404 permit, which allows for 
temporary usage of wetland property. And finally, the primary 
requirement to place a trailer on private property is that the 
property has water, sewer, and electricity. Due to the complete 
devastation of some residential areas, these three necessities 
have yet to be restored, and this has caused delay.
    In the long-term housing, the good news is there is not a 
shortage of developers who are interested in helping us 
rebuild. The city has plans for a variety of mixed-use housing 
to accommodate every socio-economic class. Some of this housing 
included condominiums, three of which have been approved for 
construction; apartments, single-family residential housing 
subdivisions; and extended-stay hotels.
    Developers, as well as public and private organizations, 
have shown more prevalent interest in the development of long-
term affordable housing. This is very important. It is 
imperative, though, that this be done right. What we are asking 
for is specialized assistance in the development of a plan that 
will spread affordable housing evenly throughout our community 
and infield developments.
    Our HUD Department needs additional support. We need 
inspectors, we need planners, we need employees. We need the 
opportunity to have live-work opportunities in communities 
where people can live in their homes and work in their homes, 
which will give them additional opportunities to get financing 
that will support the development of a home that they can be 
proud of.
    Chairman Ney. Your time has expired. If you would like to 
summarize.
    Mr. Warr. Yes, sir, I will wrap up.
    In conclusion, when people ask who is to blame for the 
conditions after the storm, I sincerely answer you can only 
blame Katrina. No one came to the Mississippi Gulf Coast 
intending to do a poor job. Were there things that could have 
been done better? Absolutely. Are there organizations that did 
less than their mission statements? Yes. Were there far more 
successes than failures? Absolutely.
    I ask this panel to engage locals in searching out ways and 
means of promoting the local readiness and abilities so that 
the tools are in the hands of those homes, families and 
properties who are involved.
    Once again, I sincerely thank you for the honor of 
appearing before you today. The City of Gulfport thanks you for 
the important work that you are doing and the improved safety 
and quality of life that will ultimately spring from your 
efforts.
    Thank you very much.
    [The prepared statement of Mayor Warr can be found on page 
171 of the appendix.]
    Chairman Ney. Thank you, Mayor.
    Dr. Smith.

STATEMENT OF DR. GAVIN SMITH, DIRECTOR, OFFICE OF RECOVERY AND 
           RENEWAL, OFFICE OF GOVERNOR HALEY BARBOUR

    Mr. Smith. Thank you for allowing myself and our new office 
which has just been stood up, the Office of Recovery and 
Renewal in the Governor's Office. We will be taking on some of 
these challenges, working in partnership with HUD and FEMA 
trying to cut through the red tape and figure out short, 
immediate and long-term and intermediate solutions to housing 
and other issues.
    I want to talk a little bit about some of the things that 
did not go so well, but I want to talk first perhaps about some 
things I think that did go well.
    One of the things that we recognize is that the provision 
of temporary housing in this disaster was done faster than ever 
before. However, that was not good enough. It is just not good 
enough. And that is one of the issues, one of the key issues 
that I would request you focus on, is coming up with a long-
term housing recovery strategy. That is going to require 
partnerships among HUD, FEMA, EDA, and a number of other 
partners working in tandem with State agencies and local 
governments. Local governments in many ways driving that effort 
because we need to develop a plan that is based on local needs. 
And I will touch on that in more detail in just a moment.
    Another issue that I certainly would like to commend FEMA 
for is the fact that they developed what are called Flood 
Advisory Elevation maps in Mississippi following Hurricane 
Katrina. And for those who do not know, it was an unprecedented 
effort, it is unbelievably useful to local governments to help 
them make educated decisions about where and how they rebuild. 
That is a very important tool, it is very difficult decisions 
that have to be made on the coast, but FEMA did a great job of 
providing that data very quickly. Those maps are available to 
communities and they can use them to help determine how they 
are going to rebuild their communities.
    Another area where FEMA is improving but more work still 
needs to be done is the area of recovery planning, generally 
speaking. They have created an emergency support function. The 
focus is on long-term community planning whose role is to bring 
together Federal agencies, State, and local governments to 
address complex issues like this. However, it is just starting, 
it has been in process or in place for a couple of years. I 
would suggest that a cadre of experts from around the country 
and within FEMA are developed that can immediately deploy to 
these communities to help them address these issues upfront as 
quickly as possible.
    Touching on the temporary and long-term housing strategy, 
as I mentioned earlier, while the temporary housing situation, 
more travel trailers were put up faster than ever before, 
again, it is just not fast enough for local governments.
    One thing that we ought to think of, in my opinion, is the 
idea as part of this plan is having an in-place coordinated 
effort not only with State, Federal, and local agencies, but 
also the private sector. Having private sector individuals, 
builders, and others that have innovative housing solutions, be 
it manufactured housing, be it panelized housing, be it the 
resources that can be brought to bear to set up what are often 
being referred to as transitional communities, setting those up 
in the immediate aftermath. Trying to come up with a plan in 
the throes of a disaster is often too late. And that is kind of 
where we are today; we are trying to come up with a plan after 
the disaster.
    So I would suggest that for the long-term recovery planning 
aspect, we really need to do a lot of that planning before the 
storm. And I would suggest that a group be formed, obviously to 
address Katrina and that is my primary responsibility and we 
will be doing that, but in the future to think about how we can 
develop a team that would do those types of pre-planning 
activities.
    I think we all know that the provision of temporary and 
long-term housing is a foundation of recovery. Until we can get 
housing in place, until we can get quality housing in place, 
affordable housing for everyone who was affected by the 
disasters, the overall disaster recovery effort is actually not 
going to be achieved as quickly as it can.
    Obviously people live in homes that are helping us rebuild 
the coast. People's kids need to come back to school, which in 
Mississippi, we do have all our schools open, which is a 
fantastic effort. But we need to do something comparable to 
that with our housing. And again, that is kind of the engine of 
recovery and we need to recognize that.
    One of the things we also need to look at is in order to 
make this happen, we are going to need three things--funding to 
help make this happen, to implement some of the ideas, some of 
the plans. We need technical assistance, people on the ground 
that can provide State agencies, local governments with that 
type of assistance. And third, we need to knock out some higher 
level policy issues. And I would like to talk a bit about those 
today as well. If we can do those three things, we will really 
be able to achieve a renaissance, as the Governor is 
suggesting, in our State.
    I want to focus a bit on policy, however.
    Chairman Ney. Your time has expired. If you would like to 
summarize.
    Mr. Smith. Very quickly, it is very important, the Hazard 
Mitigation Grant Program is something we need to look at. 
Congressman Taylor did a great job of providing assistance for 
housing outside the floodplain. This program, very well 
intentioned, a key policy issue for us is to actually--you 
typically elevate flood damaged houses. Well, if the house is 
gone, what do you elevate? So in our State, one of our biggest 
challenges is that we are suggesting that the Hazard Mitigation 
Grant Program be used to elevate--pay for an elevated 
foundation and the house upon which it sits. A critical issue.
    One other thing I would like to say very quickly is in 
connection with the floodplain mapping effort that was done 
post-disaster; pre-disaster floodplain mapping is critical, 
doing that before the storm comparable to the pre-disaster 
planning. And the map modernization program within FEMA, I 
would argue is under-funded. It is a great program and 
certainly is something worthy of further attention.
    Thank you.
    [The prepared statement of Dr. Smith can be found on page 
159 of the appendix.]
    Chairman Ney. Thank you very much. Mr. Russo.

 STATEMENT OF JAMES N. RUSSO, FEDERAL COORDINATING OFFICER FOR 
DR-1604-MS, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Russo. Good morning, and thank you, sir, members of the 
committee, Congressman Taylor, Ranking Member Waters. I have a 
prepared statement that I believe has been given to you. What I 
would like to do is also give you some perspective so that you 
know what my role was from the early days of Katrina up through 
today, so when we answer questions, you will know what my 
perspective of the event was.
    My initial role was to deploy into Jackson on the 27th of 
August, where I met State counterparts, then Federal 
Coordinating Officer Woody Carlisle, and began to pre-plan 
landfall operations. The day after landfall, it was decided 
that I would move forward to this city, to Gulfport, with a 
small command and control team to start identifying resources 
and requirements, funnel that information back up through the 
State and through Jackson, and begin the response operations in 
the lower six counties.
    On October 14th, Mr. Carlisle decided to retire, I was then 
appointed the Federal Coordinating Officer for the State and 
relocated up to Jackson, where we work daily with Governor 
Barbour's staff, my State counterpart Robert Latham, and with 
the members of Mississippi's delegation.
    While I will agree that there are many policy changes that 
I think are being looked at and I think they need to be looked 
at, I think in retrospect, many of the issues that we need to 
resolve were policy-related. I think the men and women who hit 
the ground here in Mississippi worked tirelessly. I know in the 
early weeks, the first six-and-a-half weeks I spent here in 
Gulfport and in the Biloxi area, many of our employees worked 
side-by-side with their State counterparts 18 and 20 hours a 
day, trying to identify the damages, what the needs were and 
try to get people back into some temporary shelter.
    I agree with the statements that many have made, I know 
Congressman Taylor has made it, and I have made it myself, that 
31,000 travel trailers on the ground at this date is an earth 
shattering number and a number that we would have never thought 
possible at this stage, but if your family is 31,001, it is not 
fast enough.
    There are issues with procurement, there are issues with 
policy, there are issues with transportation movement, and I 
think quite honestly one of the things that was our biggest 
impediment is it is the first time that we have dealt with a 
wide scale operation that not only displaced hundreds of 
thousands of people, but it made it much more difficult when 
the infrastructure to replace those people back on their own 
property or even remotely close to their property, was 
dismantled or completely destroyed. As you know, in order to 
put those travel trailers and relocate those people, the 
placement of choice is to put a travel trailer on their 
property, for many reasons. One, for comfort and peace of mind, 
so that they can be on their property. When the property is 
gone, when the debris is such that it is not safe to put that 
travel trailer in there, or if any of the structure is 
completely wiped out, it made it very difficult for us to get 
in there.
    I think there are changes that can be made to the way we 
put travel trailers in place, task force type mentalities that 
we can overcome. Several local issues that I think need to be 
addressed so that we can move quicker and faster in the future. 
But I think that for the most part, I think the movement at 
this level, ground level, was rapid and it was done I think 
within the confines of the incident that we were dealing with. 
The time lag in moving communications up and down the chain and 
horizontally, I think that was an issue.
    I think we have never had an incident of this magnitude, 
and to date, I would offer to you that the majority of our 
catastrophic planning to this point has been done through 
hypotheticals, through mapping, through modeling. We now have 
historical data that we can use for future planning. We now 
know, we have put people on the ground, we have had our first 
catastrophic event. And I would hope that this is the 
information and these are the people that will be allowed to 
work on the planning process for future catastrophic events.
    And with that, I will be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Russo can be found on page 
147 of the appendix.]
    Chairman Ney. Thank you. Mr. Nick Walters.

STATEMENT OF NICK WALTERS, MISSISSIPPI RURAL DEVELOPMENT STATE 
                         DIRECTOR, USDA

    Mr. Walters. Thank you all for allowing us to attend.
    As a Mississippian and a local person who is from 30 miles 
right north of here in Stone County, we are glad you are here 
and thank you for being here.
    I wanted to give you a little insight of what we have done 
as an agency in helping to try to do some relief efforts as 
well as what we at USDA Rural Development have done since that 
time of the first couple of months of being involved, to give 
you an idea of what we have done.
    We are the single largest lender of single-family homes in 
the State of Mississippi. We literally build communities from 
the ground up, whether it is the water and sewer or whether it 
is the hospitals and the schools and the other necessary 
facilities, police stations and such as that that we are able 
to do, helping businesses try to find dollars so that they can 
operate. This is what we do for a living every day. And so we 
have been about the business of doing that. We do about $250- 
$270 million dollars a year here in the State of Mississippi.
    What we did in response on the front end is first off, we 
tried to make sure that we knew where all our employees were, 
that we knew that they were safe. Indeed we are fortunate to 
say that while several lost their homes, everyone was safe and 
their families were safe, for the most part.
    The second thing we did is we made the assumption that a 
lot of the folks at the Mississippi Emergency Management Agency 
or at the FEMA office probably were not as aware that we at 
USDA Rural Development had the resources that we did here in 
the State. So we immediately went to them. I don't think USDA 
is the first place that is on a lot of folks' minds about where 
they turn to for help, but we went and met with our 
counterparts there and let them know about what we did, what we 
could offer, how we might be able to be of some assistance.
    One of our employees, as a matter of fact, went to work 
over at the Mississippi Emergency Management Agency office and 
she worked there for about 3 weeks, just answering the 
telephone, just being able to take some calls and things like 
that that we thought were important to do.
    The next thing that we did is I got on the phone with our 
Under-Secretary Tom Dorr in Washington and he told us and gave 
us the green light, and Secretary Johanns had given it as well, 
to please go and do everything we need to do under our legal 
bounds, take care of the things that we needed to do. We 
immediately began to do that.
    We also did a quick assessment of our multifamily housing 
complex units that were vacant across the State, so that people 
who were in shelters would have the opportunity to possibly go 
into one of our multifamily housing complexes. So we needed an 
inventory, a tighter inventory, on what was available so that 
as folks tried to get placed, that we knew exactly where that 
was.
    Then our Washington office really kicked in and we got debt 
forbearance for 6--first it was 90 days and then it was moved 
to 180 days, for anyone who owed us any money for a housing 
note, if a municipality owed it for a water and sewer project 
or others, we got a 180-day forbearance for them so that they 
could try to have a little bit more funds in their pockets as 
we went through this part as well.
    Chairman Ney. Your time is expired. If you could summarize.
    Mr. Walters. Okay.
    Up to date, what we have done for the future is right now 
for housing, we have taken about 6,000 applications just in our 
four local offices that are down in the southern part of the 
State. Of those 6,000 applications, we have about 500 today 
that we have already processed, the rest of them were either 
ineligible or they did not want to access any of our dollars. 
We have put about $6 million out so far to date in single-
family housing loans, either as direct loan money or in 
guaranteed loan money. And even with the additional money that 
was given for response, we believe that we will spend every 
dollar and every dime that is given to us to be able to put 
folks into single-family homes.
    The waivers that we were able to put into place so that we 
could come into more metropolitan areas, we can do a home in 
Gulfport and Biloxi now, and Hattiesburg, places that we have 
not, because of populations limits, been able to do a single-
family home inside the city limits here. Our Under Secretary 
waived all those regulations, so we are able to do that. It has 
been taxing on our folks, but our people have done an 
outstanding job, I will have to brag on them, in trying to 
deliver these programs as much as possible for the local 
community.
    Thank you.
    [The prepared statement of Mr. Walters can be found on page 
163 of the appendix.]
    Chairman Ney. Thank you. Mr. Williams.

 STATEMENT OF CHARLES H. WILLIAMS, DEPUTY ASSISTANT SECRETARY, 
     MULTIFAMILY HOUSING, DEPARTMENT OF HOUSING AND URBAN 
                          DEVELOPMENT

    Mr. Williams. Mr. Chairman, ranking member and 
distinguished members of the committee, my name is Hank 
Williams and I am the Deputy Assistant Secretary of Multifamily 
Housing in the Department of Housing and Urban Development.
    It is a privilege to be able to represent the Department 
today. We also wanted to thank you for the opportunity to host 
the tour from Louisiana along the Gulf Coast. When the call 
came in from the subcommittee staff, the HUD staff went to work 
right away to facilitate this tour and we know that it has made 
a big impression upon not only the members of the subcommittee 
but also many of the HUD staff, who had not had that 
opportunity previously.
    The Katrina, Rita, and Wilma disasters have thoroughly 
tested all of us, and the President has directed the Federal 
agencies to adapt to the extraordinary challenges presented by 
the most extensive natural disaster in the Nation's history.
    Responding to the President's direction, Secretary Jackson 
mobilized the resources of HUD, and I would like to describe 
just a few of those in my comments.
    HUD worked very closely with FEMA in the early days of the 
disaster to get the housing assistance to those who were 
displaced and uprooted by the hurricanes. There were also 
partnerships formed with the USDA, VA, HHS, and others, which 
demonstrates the dedication for getting the housing resources 
into the hands of the people who need them.
    Some of the best examples were the Katrina Disaster 
Assistance Program, KDHAP, and the Joint Housing Solution 
Center.
    Also, there were hundreds of HUD staff who volunteered and 
were deployed to the Gulf Coast area to assist in a variety of 
different disaster related activities.
    The program offices at HUD also aided in the recovery 
process. Administered by the Office of Community Planning and 
Development, the community block grant program, CDBG, is an 
important tool in the rebuilding effort. As you know, the 
President recommended additional funding for CDBG to help in 
the recovery and rehabilitation. The Congress and the President 
approved $11.5 billion in additional CDBG funding as well as 
almost $400 million for public housing authorities to assist in 
the recovery and housing efforts.
    In addition, CPD issued waivers for more than 40 
requirements within the grant programs that already existed so 
that the States of Louisiana, Mississippi, and Alabama could 
increase their flexibility to use their current resources in 
disaster recovery.
    The Office of Housing took the lead and provided the first 
90-day foreclosure relief in the Presidentially-declared 
disaster areas. On November 22nd, that 90-day period was 
extended to 180 days, which ends in February of 2006. 
Homeowners in those counties were given the opportunity to work 
with their mortgage companies and have the additional time in 
which to confirm what their intentions would be, their 
abilities to rebuild, and what their plans were for being able 
to service their mortgage payments and retain their 
homeownership. Realizing that even 180 days is not a sufficient 
period of time, HUD and FHA took the extraordinary step of 
creating the first 12-month deferral of payments for the 
disaster victims. All disaster victims in the Presidentially-
declared major disaster areas, whether they live there or work 
there, it could be either one, are eligible for 12-month 
deferral of payments on their FHA mortgage. This 12-month 
deferral then was put on the end of their mortgage, not 
required to be repaid at the end of the 12-month period of 
time, giving them really full relief for that 12 months of 
time. We determined that there were about 20,000 families who 
could benefit from this program of payment deferral.
    In addition, Secretary Jackson personally encouraged 
lenders and lender groups to undertake actions such as mortgage 
modifications, refinancing, and the waiver of late charges so 
that those in the disaster areas could have the benefits that 
HUD was providing in all areas of the mortgage world.
    The Office of Public and Indian Housing has issued guidance 
to the Nation's more than 3,000 public housing authorities on 
how to assist displaced residents. That is posted on the HUD 
website and provides the guidance both to these housing 
authorities and to the HUD offices, to be sure that maximum 
usage of the assistance is available.
    As mentioned earlier, the Katrina Disaster Housing 
Assistance Program, KDHAP, is providing housing vouchers for 
evacuee families who were previously receiving rental 
assistance through HUD, and those who were homeless--and this 
is the first time that the homeless were actually provided 
disaster relief. And the KDHAP program is the first step 
towards doing that.
    Under this program, individuals and households who had been 
found ineligible because of their participation in the HUD 
register with FEMA--
    Chairman Ney. Your time has expired. You may summarize.
    Mr. Williams. I will just finish up on this program because 
it is very important. FEMA then transfers that registration 
information and provides us the funding that is available 
through the Stafford Act to fund the program. It assists these 
families with the public housing authorities being able to help 
them to find suitable housing and they can pick a home in any 
area throughout the United States because any housing authority 
within the United States is funded through the program to help 
them with that selection. And those homes are funded 100 
percent of the fair market rent for that particular area, 
giving them maximum flexibility for a start at their new life.
    So we appreciate this opportunity of not only participating 
with you in this important Gulf Coast rebuilding effort, but 
also in the opportunity of presenting here today at the 
hearing.
    Chairman Ney. Thank you, Mr. Williams.
    And the last witness for panel one is Ms. Dianne Bolen.

STATEMENT OF DIANNE BOLEN, EXECUTIVE DIRECTOR, MISSISSIPPI HOME 
                          CORPORATION

    Ms. Bolen. Mr. Chairman, Representative Waters and 
distinguished members of the Congress; thank you for the 
opportunity to appear before this subcommittee to discuss 
Mississippi's housing needs and plans as a result of Hurricane 
Katrina.
    The Mississippi Home Corporation is the State's housing 
finance agency. We offer various State, Federal, and corporate 
programs that address the affordable needs of Mississippians.
    It is estimated that over 50,000 homes were destroyed on 
the Gulf Coast alone. The majority of homeowners had no flood 
insurance. People are still living in tents. Temporary housing 
remains a top priority. From day one, the IRS was available to 
make adjustments and waivers in our housing tax credit programs 
so that developers could move Katrina victims into vacant 
apartments.
    Additionally, the Mississippi Home Corporation partnered 
with Freddie Mac, who donated $900,000 for the purchase of 
travel trailers. The Mississippi Home Corporation was able to 
house 36 families that did not qualify for the FEMA trailers.
    We also partnered with Fannie Mae to make 15 foreclosed 
properties available to displaced families rent-free.
    MHC has focused on the rebuilding of permanent housing 
stock through the Federal programs that we administer which 
include housing tax credits, mortgage revenue bonds, and 
mortgage credit certificates. The recent enactments of the Gulf 
Opportunity Zone Act of 2005, and the tax relief bill HR 3769, 
have provided flexibility and increased cap for these programs 
to assist in the rebuilding of affordable housing. I thank 
Congress for this unprecedented situation and the speed with 
which it was enacted.
    MHC estimates that 4,163 tax credit units in the disaster 
area were damaged or destroyed. On September 7th, our Board of 
Directors approved a plan to allow developers who had received 
an allocation of tax credits but had not begun construction to 
relocate their development to sites within the disaster area. 
To date, 8 requests have been approved to relocate 228 units.
    On January 11, 2006, the Board approved a plan to 
reallocate some of the previously awarded 2006 tax credits and 
to utilize applications that are on a waiting list. By doing 
this, the Mississippi Home Corporation can immediately take 
advantage of the initial $38 million in 2006 tax credits made 
available by the GO Zone Act. On January 17th, the Corporation 
will allocate approximately nine million of the GO Zone 
credits, some of which will be 15-year single-family lease/
purchase developments. Developers will have the ability to 
maximize the number of units being built in the disaster area 
in the fastest possible manner.
    A concern of both MHC and developers is that a development 
must be placed in service by 2008 to receive the difficult-to-
develop designation. Developments typically take 24 to 30 
months to reach placed-in-service. As a result, developments 
would be exposed to a risk in development costs that would 
discourage participation in 2007 and 2008. MHC would suggest 
that difficult-to-develop designations for GO Zone credits 
conform to the IRS requirements for Section 42.
    MHC also seeks guidance on the use of the national non-
metro income for tax credit development. In Mississippi, some 
metropolitan incomes are less than the national non-metro 
income. In these cases, MHC would like the flexibility to use 
the national non-metro income.
    To encourage homeownership in the disaster area, MHC will 
provide training to lenders and realtors to educate them on 
recent changes to the mortgage revenue bond program and the 
mortgage credit certificate program. We are also planning 
homeowner fairs with our partners to educate potential 
borrowers.
    MHC is encouraging lenders to utilize HUD's 203(k) home 
improvement loan and HUD's 203(h) 100 percent financing loans 
in conjunction with a mortgage revenue bond and mortgage credit 
certificate program.
    Freddie Mac has pledged to purchase up to $1 billion in 
bonds at a below market price from States affected by Katrina. 
The benefit will pass directly to the potential homeowner in 
the form of a lower mortgage loan rate. To date, we have 
already reserved about $17 million of these funds at a 5.61 
percent interest rate and we also offered them a 3 percent cash 
advance to assist with closing costs and down payment 
assistance.
    Families are now facing foreclosure, bankruptcy, and other 
credit issues as a result of Katrina. MHC will support housing 
counseling, credit counseling, and homeowner education 
services. We have recently approved grants from HUD and Freddie 
Mac. MHC estimates that 800 households will receive assistance 
from these grants. We also need additional funds to help, 
because there are more than 800 families who could use and 
benefit from services such as these.
    MHC is also looking at ways that we can tweak other 
programs we administer to meet the needs of families of the 
disaster area. We just completed our annual housing conference 
where a record number of partners attended to share ideas and 
learn more about the latest changes in our program as a result 
of the GO Zone legislation.
    Chairman Ney. Your time has expired. If you would like to 
summarize.
    Ms. Bolen. In conclusion, the Corporation has acted to 
implement the new authority Congress has given us. We are 
committed to continuing to work with our partners to rebuild 
Mississippi.
    Thank you.
    [The prepared statement of Ms. Bolen can be found on page 
66 of the appendix.]
    Chairman Ney. We thank you so much, Ms. Bolen.
    Before we proceed, I failed to recognize special guest 
Ambassador Sidney Williams. He has been traveling with us. He 
is also the spouse of Ms. Waters. Ambassador, we are honored to 
have you here.
    Also, the Democrat and Republican staff, from both sides of 
the aisle, raise your hands. These individuals do such a great 
job. We have to give them a round of applause.
    I would like to mention the GSE bill where we work with the 
housing trust fund with Mr. Frank, Chairman Oxley and Ranking 
Member Maxine Waters, that penny--by the way, you might want to 
drop a little note to your United States Senator, we would love 
to have that House version of that fund which will help the 
poorest of the poor with housing and also will help 
specifically for disaster victims. That is one little penny.
    I have a couple of quick questions and we will move to the 
other members. I just want to get a handle on a couple of 
differences maybe, if any pops up, of the needs in New Orleans 
versus down here in Gulfport and this entire area.
    We have an issue that we heard about yesterday, a privacy 
issue. The Secretary of State of Louisiana had asked for the 
names of people and where they live. The Secretary of State got 
the names. We think we now can get the names and the Mayor of 
New Orleans said that he could not get the names. That way they 
can contact people. Is there any issue, has this been a problem 
down here of privacy and the names cannot be passed on of where 
people are at, anything like that?
    Mr. Smith. What I will say is there has been an issue of 
trying to get information relative to homeowners who live 
inside the floodplain, outside the floodplain, to try to 
characterize the level of damages that they sustained. And 
actually we have been working closely with FEMA on that. I do 
not know that that is going to be a problem. I think we have 
resolved many of those issues.
    Chairman Ney. How about FEMA, have you heard of any issues 
about privacy?
    Mr. Russo. Initially the Privacy Act came into play 
particularly when we started looking at transitional housing 
and shelters and our cruise ship population where we were 
trying to identify any undesirables that may be amongst the 
shelter population. That request went up to the State's 
attorney general and to my knowledge, we are working through 
the State's attorney general into the local law enforcement. 
That is where that stayed, at that level, and thereafter it did 
not involve us.
    Chairman Ney. The other question I wanted to ask and I do 
not know if you have exact statistics, but you might have an 
idea. Were there issues down here and do you know how many 
people have left to go to other States? As you know, in New 
Orleans, huge numbers of citizens have left. In my home area 
near Newark, Ohio, we have some families up there. Do you have 
that type of situation down here, or not; and if you did, do 
you know how many people are out around in other States?
    Mr. Russo. I will try that, Mr. Chairman. From the 
Governor's Office--and I know one of the things we tried to 
assess early on is would we see an additional influx of 
shelterees from people who evacuated out-of-State. To date, we 
have not seen that. The assessment in-State is that there were 
literally only about 3,600 hotel-motel rooms being taken up by 
shelterees, 65 percent of that were from Louisiana. So the bulk 
of the Mississippians either stayed with relatives or remained 
in the State. We are still unsure, checking with the hotel 
populations out of the State as to exactly how many 
Mississippians left. Our guess, working with the Governor and 
his office, is that it is far fewer than Louisiana and some of 
the other States.
    Chairman Ney. So you have some citizens in the hotel 
situation but not--
    Mr. Russo. Very few Mississippians.
    Chairman Ney. Okay. The other area is the flood mapping. I 
think Congressman Taylor will have some thoughts on that. 
Mapping is important. Where I live, the 18th District of Ohio, 
we had last year three rounds of floods and some people lost 
houses. We have had our share of floods and things, but I have 
found also that the mapping issue, I think, needs to be 
updated. We are working with FEMA to update that mapping and 
digitize it. That will help I believe.
    My last question I wanted to ask, also just to get a handle 
on it, was the issue of the trailers, because--has there been 
any--it seems like you got trailers in this State a lot faster, 
which is great. I know there are some different reasons for 
this, there are a lot of homeowners probably here and in New 
Orleans--some people are renting and they have to get 
permission. But it just seems like it went a little better 
here. Although you have, I understand, some trailers that are 
still hanging around. If you want a trailer and you see those 
thousands sitting there, you want that trailer obviously. And 
maybe that could be expedited somehow.
    Was there an issue of sitings? The local government can say 
yes, we will put the trailers here. Was there any complication 
on that? We have heard up in New Orleans of complications 
between the locals and the United States Government and where 
are you going to site the trailers and things like that. Any 
comments?
    Mr. Warr. Those issues were resolved rather quickly. The 
city councils and the planning departments of the cities made 
determinations that made it available for people to site 
trailers, primarily on their home sites, and in such a manner 
where the home can be rebuilt.
    Chairman Ney. So that happened fast.
    Mr. Warr. They were resolved quickly.
    Chairman Ney. Okay. The gentlelady.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I think I should preface my remarks or my questions by 
saying to the panel, I am pretty direct and I do not want you 
to take offense.
    I know that there has been a lot of cheerleading and I know 
that, you know, people talked about the high hopes and all, the 
good feelings and all like that. But my job is not to do that, 
my job is to find out where the problems are, why there are 
problems, and what we can do to help solve those problems. So 
if I come at it directly, just know this is just business, I do 
not want you to take it personally. Okay?
    Now having said that, we are here and there is a lot of 
cheering, talking about the high spirits and the hopes and how 
well things are going. But on CNN, I believe, I saw one of the 
mayors--I think it would have been the mayor of Waveland, I am 
not sure. He was totally depressed, he was sitting on a pile of 
debris and he was talking about the fact that the debris was 
everywhere and had not been moved, etc. And my heart went out 
to him because this was a robust man, as I remember and he did 
not seem like he was the type who would usually go around 
depressed. So something was going on.
    Now having said that, let me try to ferret out the problems 
as I know and understand them and get some response from the 
Governor's Recovery Office. The Governor has done a good job, 
he has friends in the White House, and they should respond to 
their friends, so he has done a good job.
    But there are some issues that have not really been talked 
about. There are people who had flood insurance, they paid 
their premiums every month, every year, every 6 months, and the 
insurance companies are not responding to them. They are trying 
to take every way possible not to have to pay these claims.
    The State legislature and the Governors can do something 
about that. Insurance companies work under the laws of the 
State, they can be fined, they can be sanctioned, they cannot 
be allowed to operate in the State--you can do a lot. But they 
get away with too much, often because the relationships between 
members of the legislature and some of the special interests 
are very cozy, we know that. Many of us, you know, have been in 
the State legislature, then in Congress, so we understand that.
    I want to ask have you done anything to deal with the 
problem of Mississippians who paid their insurance and now the 
insurance companies are trying not to pay their claims. What 
action have you taken to try to help people in that situation?
    Mr. Smith. Well, one of the things that we are looking at--
and I did not get a chance to talk about it in-depth, is 
looking at it in the Hazard Mitigation Program, trying to help 
homeowners inside the floodplain. I certainly will address your 
question, but one of the things that we are trying to do is get 
resolution to policy issues about helping those homeowners who 
have lost everything.
    Again, the Hazard Mitigation Grant Program, typically one 
of the types of activities they do is to elevate a damaged 
house.
    Ms. Waters. No, no, no, I do not want to hear about that. 
What I want to hear about is what are you saying to the 
insurance companies, are you threatening them or are you doing 
anything to make them pay these claims?
    Mr. Smith. I understand. If you will bear with me just a 
moment, they are connected. If we can assist in reaching a 
resolution, we can use money to elevate homes, pay for the 
foundation, that is one tool to assist those people that may or 
may not have had flood insurance in the floodplain.
    Ms. Waters. No, I do not want to know about that. I want to 
know what you are doing with the insurance companies that are 
not paying their claims.
    Mr. Smith. Well, to be honest with you, I have not seen 
that information.
    Ms. Waters. Okay, that is okay, that is an answer.
    Mr. Smith. I understand. What I am trying to say is that 
they are related.
    Ms. Waters. No, I do not want to hear the relationship.
    Mr. Smith. Okay.
    Ms. Waters. I just want to know, because this is a big 
issue.
    Mr. Smith. I agree, it is a very big issue.
    Ms. Waters. Now secondly, when those people who did not 
have flood insurance, who may have been told that they did not 
need it, that they were not in the floodplain area, we tried 
something in Washington to retroactively take care of these 
people, but I did not see any advocacy from the Governor's 
Office, from anybody in the State to say--
    Mr. Taylor. Whoa, whoa, whoa.
    Ms. Waters. I am sorry, it was led by Congressman Taylor.
    [Laughter.]
    Ms. Waters. But I did not see the help. We lost the vote on 
the Baker Bill by one vote, to help the people who did not have 
flood insurance. We could have done something retroactively. 
What do you think about that and will you help us in Washington 
to revisit that?
    Mr. Smith. I could not agree with you more. I worked in 
floodplain management issues for about 15 years. I could not 
agree with you more. One of the biggest problems is that we do 
not do a good enough job about educating our people about what 
options are available to them.
    Ms. Waters. No, we are past that, we are past that. We are 
past the time when--we are going to do that for the future, but 
I want to deal with the problem right now. Right now, on the 
other side of this, you have got the insurance companies, they 
are trying not to pay the claims and the second thing is you 
have those who do not have insurance, who did not know they had 
to have insurance, and they need some help or they are going to 
lose everything.
    Mr. Smith. That is right.
    Ms. Waters. What are you doing about that?
    Mr. Smith. The homeowners who do not have flood insurance 
but should have or thought they should have, is that--
    Well, one of the things that Congressman Taylor did is help 
pull down billions of dollars to help those people, provide 
assistance to the 35,000 homeowners who were impacted, many of 
whom were outside the floodplain. So that act, in and of 
itself, is going to play a huge role in directly assisting 
them. That was the intent, because the idea being that the 
insurance industry does not do a good enough job of educating 
or informing them about their options, for those people that 
live outside the floodplain. So there is $4 billion that will 
be assisting Mississippians to do just that.
    Ms. Waters. I am going to stop you at this point and I am 
going to let Mr. Taylor deal with that for a minute in the way 
that he knows how to do it.
    Mr. Chairman, I just want to say to Mr. Russo, we spent a 
lot of time yesterday talking about trailers and the siting of 
trailers. I heard a figure here of 2,500, but I am told that 
there are 5,000 families who still need the trailers. And I 
have great respect for all of the work that has been done, but 
we understand that some of your contractors do not have enough 
crews to go out and put these trailers on the ground and these 
gentlemen will probably talk about this some more. He took us 
by a trailer today to show us exactly how you put the 
electricity in and how you put the boxes in, etc., etc. And we 
have learned there are some problems in the system. And while 
you may have done a much better job than Louisiana, it is not 
good enough. Five months later, there should not be children 
living in cars, there should not be people without trailers. 
And we want to know are you having problems with the 
contractors? Do they have enough crews to send out? And 
secondly, how is the electricity company doing, are they 
putting up the wiring? And again, Mr. Taylor probably will talk 
a lot more about whether or not the electricity company could 
also put in the meters and the boxes at the same time as 
opposed to having another crew having to come out and delaying 
all of this.
    What are you doing to expedite the ability to get these 
trailers in use?
    Mr. Russo. Ma'am, I agree with you 100 percent. One of the 
things we asked for early on in this event was that in siting 
travel trailers, particularly around private sites, which is I 
think what you are referring to, is that there is a slowdown in 
the siting. The site has to be identified and it has to be 
rendered safe. Then the utilities have to be identified, the 
trailer put on, prepped and leveled. Then, utilities must be 
individually put into that travel trailer. That is an 
inefficient way to put that travel trailer on that site.
    What we asked for early on was a task force type event so 
that once a site was cleaned, it was rendered safe, the trailer 
would be placed on that private lot and then a task force with 
the plumbers, the electricians, all of the people that would be 
required to render that trailer safe and permittable, so that 
they could come to that site at once as opposed to over the 
course of 5 to 7 days.
    Ms. Waters. So what are you doing about it?
    Mr. Russo. What we found out was the local utilities are a 
private entity, they are beyond our control. And we could 
request it, but we could not mandate it. And that is what is 
holding that process up.
    Mr. Taylor. Will the gentlewoman yield?
    Ms. Waters. Yes, I will yield to Mr. Taylor.
    Mr. Taylor. Mr. Russo, on that point, and I have had this 
conversation with the folks from Bechtel, had it with Sid, I 
have had it with Mr. Chertoff--there is absolutely no reason to 
send two crews out there to hook up the electricity. It would 
have been very easy, and it is still easy--we have still got 
5,000 to go--to give the power pole to Mississippi Power or to 
Coast Electric and say you install it--one crew. Instead of a 
crew to take it from the street to the pole, have one crew do 
it right there. And that is the biggest holdup, one of the 
reasons these folks were good enough to let me walk them 
through it. Anybody can do PVC pipe, anybody can hook up the 
garden hose to get you your running water. Electricity, people 
can get hurt if you do it wrong, you can burn up the trailer, 
you can kill the installer.
    But that is something that ought to be getting fixed right 
now. And one of my continuing frustrations is your agency does 
not mandate that change. This is not the last natural disaster. 
I have still got 5,000 families waiting on a trailer.
    Mr. Russo. Yes, sir.
    Mr. Taylor. And I keep hearing somebody is going to fix it 
but it is not getting fixed. Now I cannot control Federal 
employees--you can.
    Mr. Russo. Yes, sir.
    Mr. Taylor. And that is one of the things that needs to get 
fixed. The other thing is--and I should have walked the group 
through this, I mentioned it yesterday--I am 52. Carrying 
around those propane tanks is no big deal. But on a cold day, 
like we are getting now, you get about a 3-day supply of 
propane and for the elderly, for the folks who are disabled, 
changing out those tanks is a pain. Someone in FEMA ought to be 
changing those trailers to all electric. You can buy a rooftop 
air conditioner with a heat strip. There is absolutely no 
reason why we ought to be having propane heat and going through 
the rigmarole of having to change out those tanks every 3 days, 
which costs, by the way, about $70, when it could be all 
electric. And that is just a matter of going to a 50 amp fuse 
instead of 30 amp.
    But you are not fixing that stuff and you do not seem to 
learning from your mistakes.
    I very much appreciate--I mean the gentlewoman from 
California caught onto this very quickly. She is easy on you, 
you should have seen the guys in Louisiana yesterday.
    [Laughter.]
    Mr. Taylor. That guy just wanted to die.
    But again we say this hopefully as constructive criticism. 
I respect Sid, Sid served in the United States Army for many 
years. But this affects the lives of south Mississippians, 
affects the lives of south Louisianians and it is going to 
affect--no telling where the next storm is, but we have got to 
get better as a Nation. And the frustration is I do not see you 
all getting better.
    I yield back.
    Ms. Waters. Thank you. And I will just wrap this up by 
saying that you talk about inspections, I have a great respect 
for inspections. I do not know what all the local laws are, but 
we heard something really stupid yesterday. And that is a woman 
who wanted a trailer, who had a driveway, she is the only one 
in the neighborhood, but they are trying to rebuild her house. 
The neighbors on either side are gone, do not know where. And 
they would not let her have a trailer because it came 4 inches 
over her driveway. Now this says a lot about bureaucratic 
nonsense in the siting of these trailers. I do not know if the 
4-inch problem is a local problem with city ordinances or what, 
but really, we expect that these kinds of little nuisances will 
not prevent these citizens from getting these trailers placed 
on their property.
    We would like for you, FEMA, to identify every obstacle 
that you see, we want it in writing. Mr. Chairman, may I ask 
that they submit it to you--every obstacle from the Federal 
level to the local level that you have. And at the local level, 
I want you to talk with the Mayor and members of the city 
council and tell them about a stupid inspection rule that will 
not allow you to site a trailer on property because of some 4-
inch extension over to another driveway. This is nonsense. It 
has been 5 months since Katrina and Rita. There should be 
nobody, nobody, without transitional housing of some kind, be 
it a trailer or some assurances that they can stay in rental 
property. And no excuse is good enough.
    Having said that, again, I am very, very appreciative for 
the opportunity to be here and to share with you in the best 
way that I can, we are going to do everything possible. I am 
not going to go back through the history of FEMA and criticize 
what they have not done. I want to talk about right now what we 
can do.
    Thank you, Mr. Chairman, I yield back.
    Chairman Ney. I thank the gentlelady. Mr. Taylor.
    Mr. Taylor. Again, I want to thank everyone who is here, 
particularly our witnesses.
    Ms. Waters, in answer to a couple of your questions--and I 
realize this is a housing hearing, but you are the Financial 
Services Committee that has oversight for the Federal flood 
insurance.
    The reason I took you to my neighborhood today is because I 
wanted you to see the slabs. And you touched on a huge problem 
for the people of south Mississippi. On the one hand, the 
Federal flood insurance companies are the only ones paying 
their claims. Our Nation has done the right thing by FEMA.
    Ms. Waters. Okay.
    Mr. Taylor. On the other hand, the wind insurance people 
have used, as you mentioned, every excuse under the sun not to 
pay people. You saw my neighborhood. What took those houses 
away, was it water, was it wind? As I pointed out the Federal 
employee who died, who stayed in his home--if you stayed 
behind, you were going to die. And what happens is the 
inspectors come on board from the insurance companies and they 
say I do not see any wind damage. Well, there will be tin in 
trees 30 feet up in the air, there will be trees toppled over 
obviously by wind.
    And so one of the things from Financial Services that I 
would ask is it is called the Federal flood insurance program, 
we need to change it to the Federal natural disaster program. 
It does not matter if it was wind or water or a tornado; if 
your home is destroyed, it is destroyed.
    [Applause.]
    Mr. Taylor. And again, this is something where our Nation 
did better than the private sector, we paid our claims, they 
did not.
    The second thing is, and you touched on it, why in this day 
and age are there only two businesses in America that are 
exempt from the antitrust laws and do not have Federal 
regulation? Major league baseball and the insurance industry.
    [Laughter.]
    Mr. Taylor. It is perfectly legal for the insurance 
industry to set prices, to divvy up territories--you take 
Louisiana, you take Mississippi. They can conspire to raise 
your rates. No other business in America can do that. Anybody 
else would go to jail.
    So again, this is your committee, this is where it would 
start. We need Federal regulation of the insurance industry, 
because--you come from a high-tax, high-service State.
    Ms. Waters. Yes.
    Mr. Taylor. I come from a low-tax, poor-service State. So 
the resources available to regulate them in Mississippi, quite 
honestly there is not much there and they have done very little 
with what they have.
    So again, it ought to be Federal, it ought to be just 
natural disaster insurance, so you do not have to stay in your 
house with a video camera to find out why it was destroyed or 
how it was destroyed. If you have been paying your premiums and 
it is gone, you ought to get your settlement.
    To Mr. Smith's credit, we did not pass the bailout of those 
folks who lived outside the floodplain in the way I would have 
preferred and the way that you folks would. The way I would 
have preferred it is if we did it through Federal flood 
insurance, then you send an inspector out, who takes a look at 
the damage, and your claim is based on your damage and how much 
you insured yourself for. Now it is going to go through the 
community development block grant program. And since you are 
here, Mr. Smith, and I will give you an opportunity to comment 
on this, I have heard reports and I hope they are wrong that 
the Governor does not want to pay claims on less than 51 
percent damage. That is crazy.
    If a person had insurance, which is one of the things that 
they had to have had in order to qualify, and they file a 
claim, I do not care if it is 20 percent of the value of their 
home, one percent of the value of their home, or 100 percent, 
it ought to be based on the damage.
    [Applause.]
    Mr. Taylor. If you are on a fixed income and you live at 25 
feet elevation and the unforeseen happens, which is the 
flooding of your home, you have now got to pull up the 
sheetrock, you have got to pull up the insulation, you have got 
to rewire your house. Even a small house, that is $50,000 
expense that people never dreamt they were having. And that may 
be way less than 51 percent of the value of their house. Those 
people need help.
    In my conversations with the Governor, he said he was going 
to help those people, so I hope it is not just some bureaucrat 
misspeaking, because the Governor's intentions--and I hope he 
will fulfill those intentions--is to help everyone who had 
insurance, who lived outside the floodplain, who had damage, up 
to the amount of their insurance or 150, whichever is less, 
minus what they got out of insurance. That was the agreement we 
had in Washington. I sure hope it is what your agency will do.
    The last thing, the flood insurance, and again this comes 
back to your committee. You passed by the Stennis Space Center, 
it is our Nation's center for remote sensing from satellites, 
is where I showed you they test the rockets. They can tell you 
the elevation of every square inch on earth from space. They 
can tell you how high the water got the day of the storm, from 
space. There is absolutely no reason that these flood maps have 
to take 18 months. They had that information within days of the 
storm; and quite frankly, for the cities to come up with their 
ordinances of before they give building permits what your 
elevation has to be, that information needs to be in their 
hands right now. And my great fear is right now the Federal 
flood insurance is only issuing--and please correct me--
recommendations.
    Mr. Russo. That is correct.
    Mr. Taylor. They are only recommending you go so high. So 
what happens if 6 months from now, the cities did not follow 
the recommendations, but then they come back and take the hard-
nosed approach and say you did not follow our recommendations, 
no one in Gulfport can get flood insurance, or no one in Bay 
St. Louis or no one in Long Beach.
    Again, we need a clear definition from the Federal folks, 
what the rules are going to be. And we need to know right now, 
so that the rules do not get changed after the fact, after 
people start rebuilding and we find out that Gulfport or Bay 
St. Louis or Long Beach or Delisle or whoever cannot get 
Federal flood insurance as a community, even if some people 
went and lived by the new rules.
    Again, I am going to throw that back out, but that flows 
through this committee. I regret that I am not a member of this 
committee, but again, I am so grateful that so many of you gave 
up your weekend to come down here and see south Mississippi. We 
did take them to see a travel trailer, they know what it is all 
about and they know we have got some incredible challenges.
    So again, thank you to all of our witnesses. Mr. Smith, if 
you want to comment on that, I would welcome your remarks.
    Mr. Smith. There are a couple of things. One on your 
question of the 50 percent rule, I know that is a huge issue 
for a lot of people, because a lot of people suffered outside 
the floodplain less than 50 percent, perhaps 45 percent or 10 
percent or less. That issue--you and I talked about it in the 
hall--is a big concern of the Governor and we are looking at 
the amount of money available and all of the needs outside the 
floodplain, for those people that have the criteria, they had 
homeowners, they are impacted by wind, it was an owner-occupied 
dwelling. We are looking at that and so we should have--in 
fact, I hope we will have the universe of need identified early 
next week and one option is to set up a prioritization of 
expenditure of those funds outside the floodplain.
    Chairman Ney. Your time has expired.
    The gentlelady from California.
    Ms. Lee. Thank you very much.
    Let me talk a little bit, very briefly, about the money in 
the Congress. Initially, as you know, there were five large 
contracts, no-bid contracts, let. And of course, many of us 
thought that that was totally unacceptable and in fact we know 
that when that happens, quite often, African-American 
businesses, minority companies, small businesses are eliminated 
from the overall benefit of the contracts that are let.
    Let me ask you--yesterday we learned in New Orleans, for 
example, about debris removal. And so I want to ask how those 
contracts are working now.
    Secondly, on the debris removal, we learned that the prime 
contractor is paid about $43 a cubic foot, but by the time they 
subcontract, subcontract, subcontract, the individual or 
entrepreneur who finally does the work is paid about $7 a cubic 
foot. To me, that seems totally unacceptable and I want to find 
out from you how this is working here, the percentage of 
African-American and minority businesses that are benefitting 
from these contracts for the huge amount of work that needs to 
be done, and how this is working and what you see for the 
future in terms of benefits to the local community.
    Mr. Russo. Ms. Lee, I can tell you that to date of the 
contracts that have been let here in Mississippi, about 66 
percent have been let to Mississippi contractors. In terms of 
the debris removal contracts, those debris removal contracts, 
if I am not mistaken--and we may have subject matter experts 
here in the room we can clarify it--those are being rebid I 
believe this week. So there will be a rebidding of those 
contracts.
    Mr. Thompson. Will the gentlelady yield?
    Ms. Lee. I will yield to the gentleman.
    Mr. Thompson. Of that 60-some percent--
    Mr. Russo. Yes, sir.
    Mr. Thompson. Give me the dollar breakout.
    Mr. Russo. I can certainly have that for you, sir, I do not 
have it in front of me.
    Mr. Thompson. But you understand what I am saying. You give 
the impression that 60 percent of the companies from 
Mississippi got the bids, but did they get the money? If they 
only got 10 percent of the money, they got short-changed. That 
is the point.
    Mr. Russo. Okay.
    Mr. Thompson. If all these individuals were working as subs 
and not as general contractors, that should not give you 
bragging rights, because that is not good. There are good 
Mississippi companies who ought to have the general contracts 
and not the subcontracts.
    Mr. Russo. Yes, sir.
    Ms. Lee. That is the second part of my question, the amount 
of money that is paid. In New Orleans, for example, $43 a cubic 
food versus the money that was finally paid to the sub, which 
really does the bulk of the job. So who would have that 
information, in terms of how much money is paid to who?
    Mr. Russo. The majority of the contracts go through GSA 
procurement process, that is the way the contracts are let. We 
can certainly access that information and get it to you.
    Ms. Lee. FEMA does not let the contracts directly at all 
for debris removal?
    Mr. Russo. There are two mechanisms for debris removal. One 
is that the municipality has the option to go with the Corps of 
Engineers for debris removal, and they also have the option to 
contract individually for their city. And those contracts are 
let either by that city or they go directly through the Corps 
of Engineers. The Corps of Engineers contract is let by FEMA.
    Ms. Lee. Okay. So you do not have that information here 
today?
    Mr. Russo. No, ma'am.
    Ms. Waters. If the gentlelady will yield for a moment.
    Ms. Lee. Sure.
    Ms. Waters. FEMA contracted with several firms, as the 
Congresswoman mentioned, they were no-bid contracts; that was 
Shaw, that was Bechtel, that was Fluour, etc.
    Mr. Russo. Yes, ma'am.
    Ms. Waters. Now you did that contract, FEMA did that 
contract.
    Mr. Russo. FEMA did that contract.
    Ms. Waters. For debris removal.
    Mr. Russo. Correct, yes.
    Ms. Waters. That is what the gentlelady was asking. I mean 
we do not want you to deflect it and talk about the GSA 
contracts, you did those contracts. And furthermore, you have 
some escape clauses in those contracts. And if they are not 
performing, if they do not have the crews, if they are not 
charging properly, if they are not including the local 
community, you can get out of those contracts.
    Mr. Russo. Yes, ma'am.
    Ms. Waters. Right?
    Mr. Russo. I am sure the agency has some escape clause, 
yes.
    Ms. Waters. Of course you do.
    Ms. Waters. I yield back to the gentlelady.
    Ms. Lee. So do you know how much money then the contractor 
is paying, bottom line, to those who are doing the work?
    Mr. Russo. I do not.
    Chairman Ney. Can you get that information?
    Mr. Russo. Yes, ma'am, we can get that information for you, 
I do not have that information.
    Ms. Lee. Thank you very much. And you will get that to the 
committee. Thank you very much.
    Chairman Ney. And we will pass that to the members.
    The gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Russo, I am sorry to continue with you, but I think we 
have more business to discuss.
    In your State, how many people are in hotels?
    Mr. Russo. Last estimate is 3,700, sir, I believe.
    Mr. Green. Thirty--
    Mr. Russo. 3,700.
    Mr. Green. This is something you may not know. Living in a 
hotel is not living high on the hog. And people need to know 
this, because yesterday at one of our hearings, we had a lady 
to give us testimony indicating that in the hotel, you have no 
refrigerator, you have a little ice bucket; no means to cook 
her food, so she has to eat out every day--person on a fixed 
income, eating out; no maid service. Hotels do not give you 
maid service when you are there as a FEMA evacuee. No room 
service. So it is not the typical hotel situation. And every 3 
days she has to request an extension.
    Now it would seem to me, given that we have had a Federal 
judge to intercede, given that we have municipalities who are 
pleading to have people get extensions, that we ought to be 
able to do something about this 3-day extension, so that people 
do not have to go in to the hotel management every 3 days with 
an extension. It was 7 days at one time, it has been reduced to 
3 days and we need to do something about these extensions. What 
can we do so that elderly senior citizens do not have to 
continue to get these extensions?
    Mr. Russo. Sir, I think that in conjunction with the new 
code system that they are putting in for hotel shelterees, 
there should be no reason for them to have to extend every 3 
days. That is a matter of FEMA notifying our housing contractor 
to notify those housing providers that that is no longer 
necessary. That is something that is an easy fix and it can be 
done.
    Mr. Green. So let me make sure I understand. The 3-day 
extension rule is something that is imposed by the 
entrepreneur, the hotel--
    Mr. Russo. I am unaware of any 3-day extension required by 
us.
    Mr. Green. Well, then I think, Mr. Chairman, we truly need 
to check these and verify this.
    Chairman Ney. If the gentleman will yield, I am not taking 
it off your time, but I noticed yesterday, I recall the one 
lady said she had a 3-day but the second lady who was in 
another hotel said she did not. There is something going on 
where, for whatever reason--you are saying you do not know 
about it, but in New Orleans one person had to do it and one 
did not. So we need to find out if that is a blanket policy.
    Mr. Green. If we could do some additional inquiry, Mr. 
Chairman, I would appreciate it if you would advise us how we 
may proceed.
    Finally, before I yield back my time, it is true that these 
are difficult tasks, but given that we are now months away, 5 
months away, people ought to have what we would expect to have 
if we were similarly situated. A lot of these people are coming 
up short because they are poor and because they do not know how 
to finesse the system the way you and I might. This system has 
to be revamped so that it can respond not only to those who are 
among the best and the brightest, but also so that it can 
respond to those who are among the least, the last, and the 
lost. We have to reform the system.
    Thank you.
    Chairman Ney. The gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Let me first of all ask whether or not the Governor's 
office has been notified of the $11.5 billion of community 
development block grant.
    Mr. Smith. Yes, we have. And we are in the process of 
working with the Mississippi Development Authority who will be 
the entity administering that program. In fact, that is what I 
was referring to, is looking at the need, collecting the data 
as quickly as we can and looking to disburse that money to 
those folks that do meet the criteria as stated in the bill--
the law.
    Mr. Cleaver. That money--there is great flexibility with 
CDBG dollars, however, those dollars are aimed at--unless the 
regulations have been dramatically altered, you can only spend 
those dollars in certain areas and under certain circumstances. 
My concern is--and we really may need to go back and have HUD 
officials come before our committee to go through the 
regulations. It appears that the regulations that normally 
govern CDBG, Mr. Mayor, have been altered. I would imagine that 
this community under normal circumstances would apply for CDBG 
through the State. Jackson and probably a few other larger 
cities would get a direct grant. My concern about the CDBG 
dollars are two-fold. One that the public is involved in 
determining how those dollars are being spent, according to 
existing Federal guidelines. Those dollars are not supposed to 
be spent without a public hearing. And in addition to the way I 
think we normally have public hearings, members of the public 
are not notified. I think in this case, they need to be. I 
think that Congressman Taylor needs to know when the public 
hearings are being held.
    The other concern is because of the contentious nature of 
CDBG hearings--my experience--if you have a number of 
Mississippi communities that have been devastated by the event, 
what you are also going to have are a number of people coming 
together vying for those dollars. And I think it creates chaos 
where chaos should be minimized. The people will come in and 
naturally they are going to want to get the dollars they think 
their communities needs. And retrospectively, we might have 
come out better if we had figured out a formula before those 
dollars were allocated, because some communities feel neglected 
and, you know, they are excluded. I have been there, I could 
write a little pamphlet on it. I have great concern about it.
    And the other concern is when we--I keep hearing that the 
time has been reduced from a 30-day notification to a 3-day 
notification. And I have been told that by officials in New 
Orleans and if that is the case here as well, then what we have 
tried to do is to get away from notifying the public at all, 
because 3 days, that just is not--that does not make sense.
    Mr. Taylor. If the gentleman will yield.
    If you are not familiar with all this, I certainly cannot 
fault you but the debate on this took place at 4:00 on a Monday 
morning on the House floor. The Katrina relief was attached to 
the Defense bill, which again, at 4:00 in the morning, not 
everyone is at their best.
    But that has been very well publicly--at least here in 
Mississippi--explained. That $11 billion will be split roughly 
60/40 between Louisiana and Mississippi. And the Mississippi 
portion will be directed to individual homeowners who lived 
outside the floodplain who had some form of homeowners 
insurance, up to $150,000 they can file a claim or ask for a 
grant to help them move their lives forward to either pay off 
their mortgage on a house that is gone, use that money for 
repairing a house that has been damaged. It is going to flow 
through the State and what I was asking Dr. Smith to do, is to 
see to it that whether a home was 10 percent destroyed, one 
percent destroyed, or 100 percent destroyed, that they can file 
a claim. Because my concern is some word has come out of our 
Governor's office that only those homes that were 51 percent 
destroyed or more could file a claim, and I do not think that 
is fair and that is certainly not the understanding I had with 
the Governor when we spoke in Washington.
    Chairman Ney. Your time has expired.
    Mr. Smith. If I could respond just briefly. Yes, sir, that 
50 percent rule has not been established per se, it is being 
discussed. I just want to make that very clear. What we are 
trying to do is assess the need first and foremost.
    Just very quickly to your question, in addition to public 
meetings as required, they are also in fact--Mississippi 
Development Authority is holding focus groups, so they are 
going to look at bringing in a series of disaster victims that 
are facing in some cases the worst of the worst, those that 
need the most help, that really need the assistance. They are 
going to have a panel and they are going to ask them questions, 
almost like you would at a housing council. They are going to 
try to get in-depth information as to how to best spend this 
money.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Chairman Ney. Mr. Thompson, I do not think at this time, 
has any questions.
    Congressman Melancon.
    Mr. Melancon. Thank you, Mr. Chairman.
    Mr. Russo--and I do not know if this is the situation here, 
I know last night going home after having discussions with Mr. 
Wells in New Orleans--are there hotel rooms or apartments or 
facilities where Federal employees or contractors to the 
Federal Government are staying in the immediate area? And to 
what extent would that number be of the total housing 
available?
    Mr. Russo. The total workforce in the State of Mississippi 
to date is about 1,800. I do not have the number on contractors 
or other Federal agencies.
    Mr. Melancon. For FEMA, the people that you have on the 
ground, how many people are here in the coastal area?
    Mr. Russo. In the coastal area to date, we probably have 
about 350.
    Mr. Melancon. And they are all in single-family dwellings 
or hotels or trailers?
    Mr. Russo. They are wherever they could find lodging.
    Mr. Melancon. One of the things--and the reason I asked 
that and this is one of those after-thoughts I had last night. 
The folks in the metropolitan area of New Orleans are being put 
in trailer parks up in the northern part of the State, in other 
States, any place they can, other than where they want to be 
and that is close to their home so they can rebuild. And I 
guess I need to speak with Mr. Wells or maybe the regional 
people for FEMA.
    It makes more sense to me when you have a trailer park 
outside the city somewhere to put the FEMA workers out there, 
contract workers out there. They are not bringing their 
families, so they will not be burdening the education system. 
They should be working in New Orleans all day or in the region 
down there all day, so they will not be burdening the law 
enforcement system and the trailer parks should not be 
burdening the water, gas and electricity system. And we have 
got just the opposite. The FEMA workers are in and the people 
are out. And that is one of our dilemmas there, but it does not 
sound like that is a problem here.
    Mr. Russo. I do not think it is that extreme here, sir. It 
is certainly something we could review and if it had any impact 
at all, we could make adjustments.
    Mr. Melancon. I would rather see them commuting in 
government cars and rented cars than folks having to commute in 
to work on their house.
    I yield back my time, Mr. Chairman.
    Chairman Ney. The gentlelady from California.
    Ms. Watson. A question for Mr. Russo. I understand that 
there were non-bidded contracts given out because of the 
emergency needs of the various communities that were affected 
by the hurricane. What I am hearing, we heard today and we 
heard all day yesterday, is that they have not been effective. 
Why then would you continue giving these contracts out and they 
cannot do the work. I think it is the most ridiculous thing and 
Mr. Taylor took us out and showed us the poles and so on, and 
one group comes in to do one part and another group comes in to 
do the other and a third group comes in. That seems to be a 
very inefficient way.
    What is FEMA--Federal Emergency Management Agency--going to 
do about that? And why do you give contracts out when they 
cannot deliver?
    Mr. Russo. Well, ma'am, first in terms of the contracts, 
the contracts are let at a level, a policy decision level, and 
I am not involved, nor am I solicited for information on the 
contracts and how they are awarded.
    I agree with Congressman Taylor in terms of the travel 
trailers. I think in order--we only have control over Federal 
employees, but I agree that there needs to be a better system 
and I think one of the things we would have to do to accomplish 
that is we would have to enter into memorandums of agreement 
with those local power authorities, so that we could do that in 
a task force mentality rather than have that homeowner wait for 
5 to 7 days for the various utilities to be hooked up. Have a 
memorandum of understanding or memorandum of agreement between 
the Federal Government and the local utility companies to make 
that happen in a one stop.
    Ms. Watson. I appreciate you stating that it is happening 
above your level, because I am suspecting, and it seems to be 
consistent that it is an old-boy still and the friends get the 
contracts. The people who really need them, the locals who can 
do business, are not getting them and so the work is not being 
done in an expeditious way. So I would hope that you would give 
to this committee a list of positions that can be changed to 
make what you do more effective and impact in a positive way on 
these people who have survived this terrible disaster. And we 
cannot continue to cover up for bad doings. This is public 
money that you get to serve the public and I do not see it 
being done in an effective way.
    So I would hope that you would report back to your agency 
that there are some problems out in the field.
    Thank you very much, Mr. Chairman.
    Chairman Ney. I will also, without objection, leave the 
hearing record open for 30 days so that members of this panel 
who have questions, additional questions, will put them in 
writing and you can respond to them.
    I want to thank the panel. This was I think informative, 
there are some similarities and contrasts to the operations. 
Also again I want to thank the Mayor for your help. I still 
think too that it is important, as we talked in Washington, 
that we are here to help. We cannot tell you how to live, your 
communities need to decide that, mayors and councils and 
trustees and working with members of Congress.
    You are at that point where a lot of things have got to be 
put forth and decided, and we appreciate your input.
    Mr. Warr. It is an honor to have you all here today.
    Ms. Waters. I just want to say that I want the record to 
reflect that I do not know for sure who the mayor was that I 
was trying to describe. I will get my staff to go back and 
research that because I do not want the wrong mayor to get all 
upset.
    Mr. Warr. Well, it was not me. I have been depressed, but 
that was not me.
    [Laughter.]
    Ms. Waters. Thank you very much.
    Chairman Ney. We want the right mayor upset.
    [Laughter.]
    Chairman Ney. Thank you for all your help.
    Mr. Warr. Thank you.
    Chairman Ney. We need to proceed right away. Our second 
panel is Rodger Clark, executive director, Bayou Gulf States 
Chapter, Paralyzed Veterans of America; Ms. Sheri Cox Bowling, 
disaster response coordinator, Diocese of Biloxi, Catholic 
Social and Community Services; Mrs. LaNelle Davis, executive 
director, Housing Authority of the City of Long Beach; Mr. 
Wallace Davis, chief executive officer, Volunteers of America; 
Mr. Phil Eide, Enterprise Corporation of the Delta; Ms. Cynthia 
Griffin, executive director, Habitat for Humanity/Metro 
Jackson; Mr. Derrick Johnson, president, Mississippi NAACP; Ms. 
Shantrell Nicks, attorney and local resident; Reverend Rosemary 
Williams, Mount Zion United Methodist Church and Pastor Carlton 
Jones, Second Sweet Home Church, Gulfport, Mississippi.
    We will begin with Mr. Clark.

   STATEMENT OF RODGER CLARK, EXECUTIVE DIRECTOR, BAYOU GULF 
         STATES CHAPTER, PARALYZED VETERANS OF AMERICA

    Mr. Clark. Thank you, Mr. Chairman.
    Chairman Ney. If we could clear the hallway.
    Mr. Clark. I would like to take this time to thank the 
chairman and other distinguished members of this committee for 
allowing me the opportunity to testify before you today on 
behalf of my organization and the disabled community on the 
Mississippi Gulf coast as a whole.
    Immediately after Hurricane Katrina, my organization went 
into the devastated areas to check on our members and the 
disabled community doing whatever we could to get food, water, 
fuel, and medical supplies to those who had lost everything. I 
found that we had 24 spinal cord injury veterans at that time 
who had lost everything and were living and sleeping in tents, 
and out of their wheelchairs.
    I immediately contacted the FEMA representative here and 
the Harrison County Emergency Operations Center, introduced 
myself, and told him what the situation was. I was informed at 
that time that he was worried about the entire operation of 
southern Mississippi, not just a handful of disabled veterans 
or disabled members of the community.
    I then notified Washington, D.C., and advised them of the 
situation, talking directly with the head office of FEMA out of 
Washington, D.C., and my national president in Washington, D.C.
    So we turned our attention to FEMA and the Bechtel 
Corporation, who was responsible for getting temporary shelters 
into the affected areas. I started placing phone calls and 
every call went unanswered. I contacted WLOX-TV and talked with 
A.J. Gardina and he agreed to meet me at one of the FEMA 
trailer parks located here at the Biloxi/Gulfport Regional 
Airport. We did an interview out there. They had a total of 56 
mobile homes at that trailer park. There was a total of 13 
disabled trailers set up for the handicapped. They all had 
occupancy stickers, this is 9 weeks after Katrina and there was 
not the first member of the disabled community or the able-
bodied community living in this trailer park.
    The interview aired at 6:00 p.m. that night. At 6:05, my 
cell phone rang. It was a representative from FEMA out of 
Jackson. He stated you wanted FEMA's attention, you have got 
FEMA's attention. What can we do for you? I told him the 
situation with the trailers down here on the coast and the fact 
that handicapped trailers were non-existent. There were no 
handicapped trailers delivered to the coast. He stated that he 
is averaging three to four trailers a week that are handicapped 
accessible. I find that ludicrous.
    My organization in Washington, D.C., submitted a plan for a 
universal design of trailers, both mobile homes and the travel 
trailers. That plan never went into place. If you had a 
universal designed trailer that is set up for either the 
disabled community or the able-bodied community, universal 
design, anybody can get in that trailer. All it takes is 
putting that trailer in a location and if it is for an able-
bodied, place steps so the able-bodied can get in; if it's for 
the disabled, place a ramp.
    I was given a call the next morning from the same 
individual up in Jackson, and he told me to fax a letter to him 
that had a list of my spinal cord injured veterans and the 
disabled community, he would fast track them into trailers. I 
got in touch with the local organizations here that represent 
the disabled community to get the information. The information 
that FEMA required me to fax to them consisted of the 
individuals' names, number in family, the registration number, 
where they are displaced to, and the location where they want 
the trailer to be placed.
    When you try to contact nine organizations to find out 
where their people are at, how many people they have, and the 
whole nine yards, and then get it in, that is tacking more and 
more time on these individuals waiting. I have still got 45 
spinal cord injured veterans who are scattered in VA medical 
centers throughout the United States waiting on FEMA trailers 
right now. And that does not include the disabled community as 
a whole.
    I was contacted by a lady yesterday, FEMA delivered a 
trailer to her home, she has been waiting all this time for a 
handicapped accessible trailer and they delivered a trailer to 
her home and put a ramp up. She called me up, I went out there, 
and went up the ramp. The door is a foot-and-a-half-wide. Now 
how can an individual in a power chair get into a trailer with 
a one-and-a-half-foot-wide door? When I contacted FEMA--
    Chairman Ney. Your time has expired, if you would like 
conclude.
    Mr. Clark. Yes, sir. When I contacted FEMA, FEMA stated 
that it would be taken care of.
    The Gulf Coast Fair Housing Center did an audit of 
complexes prior to Katrina and 75 percent of the complexes here 
on the Mississippi Gulf Coast were not compliant with the Fair 
Housing Act.
    We as a community, and the leaders in the community, need 
to look--it is sort of like a clean palette now. We need to 
ensure that when they rebuild the Mississippi Gulf Coast and 
New Orleans, we need to ensure that all new construction is 
done to standards in the Fair Housing Act to allow affordable 
accessible housing for everyone in that community, to include 
the disabled and those on fixed incomes.
    I would like to thank this committee. With me today for 
questions on the Fair Housing Act are Charles Lee, the 
executive director of the Gulf Coast Fair Housing Center, and 
my government relations director, Wayne Grassley, for when the 
question and answer period opens up. Thank you.
    [The prepared statement of Mr. Clark can be found on page 
74 of the appendix.]
    Chairman Ney. Thank you. Now Ms. Sheri Cox Bowling.

  STATEMENT OF SHERI COX BOWLING, DIRECTOR, DISASTER RESPONSE 
 COORDINATOR, DIOCESE OF BILOXI, CATHOLIC SOCIAL AND COMMUNITY 
                            SERVICES

    Ms. Bowling. Good morning. I am Director of Long Term 
Recovery for the Catholic Diocese of Biloxi. We serve the lower 
11 counties in Mississippi.
    Chairman Ney. Could you move the microphone a little bit 
closer. Thank you.
    Ms. Bowling. We serve the lower 11 counties of Mississippi. 
We are most active right now in the lower six counties. 
Currently we have 961 families who have requested assistance 
from us and that number grows between 20 and 30 per day.
    I have prepared a list for you that is basically the voices 
of the clients that we serve. When I received the invitation, I 
was not sure how to respond. We have been on the ground since 
the storm; I was here for the storm. We were not sure exactly 
what you needed from us, so I went to our clients and said tell 
us what the problems are so I could bring them.
    I will not go over all of them; you have heard most of 
them. A lot of them have already been in the media and a lot of 
them have already been discussed today, everything from the 
extended wait time for a FEMA trailer--one of the issues that a 
client has brought up over in the Waveland community is that 
those trailers are available, they are ready, but because of 
the rain we keep having, they cannot get the heavy equipment 
through the mud to be able to clear the debris enough to set 
the trailers up. I went to our recovery team and I said what 
suggestions would you have for something like that and everyone 
said the same thing--we have the SeaBee base here, we have 
military experts in going over difficult terrain; why can we 
not use that resource to figure out how to get across the mud? 
So that was one of their suggestions.
    Some of the other issues that were brought up were the lack 
of a clear plan for the housing issues after the 18 months that 
FEMA provides, the temporary housing for 18 months. But because 
this recovery process is so long, 18 months is going to expire 
and there is no clear plan for what will happen after that 
point.
    Let me preface that by saying I come from Florida. I am a 
Mississippi resident now, but I come from Florida and was in 
long term recovery there, and we have seen, and I certainly 
know from my own personal experience and from professional 
experience that the recovery process can take years. We really 
need to come up with something that is going to ride us past 
this 18 months. In Florida, they had a plan where people could 
purchase their FEMA trailers after the 18 months, to remain 
there until they could move on. And they have announced several 
times in the newspaper here that it is not an option for 
Mississippi residents. Somebody needs to come up with a plan 
for that.
    A lot of the trailer clients complain that the trailers 
were delivered to them but they were not equipped with the 
essential things that generally come with a FEMA trailer, the 
linens, the pots and pans, the essentials for living inside 
this trailer.
    We have had numerous complaints, as Mr. Clark has talked 
about, clients who are handicapped, disabled in different ways, 
who are not given handicapped accessible trailers.
    As an agency, I have had to send my volunteers and pay for 
two ramps to be built on trailers and we had to cut the doorway 
on one trailer because after going around and around, it 
finally came to FEMA's attention locally to help us with this 
client and the solution was for us to go cut the door and put a 
new door in and build our own ramp on the trailer because no 
one was coming to build a ramp for that client.
    Again, I brought that issue to our case management team and 
said what is your recommendation and they said, you know, we 
are set up and experienced in case management, our job is to 
match clients with resources. American Red Cross, all of us who 
do this for a living and have done it for years, know how to 
match clients with resources and match them together quickly 
and efficiently. Our suggestion is that FEMA might consider 
contracting with agencies like us and Red Cross and other large 
agencies who do case management. And when you have clients that 
are applying for the FEMA trailers, to let us come in and help 
and we make sure that there are pots and pans and linens and 
things for those trailers.
    The two other main things that clients have mentioned where 
we have had difficulty was relocation issues. FEMA and HUD have 
offered and given written documentation to our clients that 
they will be provided with 18 months of rental assistance. Two 
problems with that. One is that they do not provide for a way 
to move, so as an agency I have to rent them a moving van and I 
have to pay for the gas to get that moving van from point A to 
point B. So a comprehensive package that included all the 
things that are necessary to relocate would be helpful.
    The other issue is that we have clients who are being 
evicted because their FEMA money has not shown up, the 
landlords have not received the funds that they were promised 
in that letter. So we have clients in Jackson, Laurel, down 
here that are all being evicted from their apartments and their 
houses because that money has not arrived and the client does 
not have the ability to pay for it themselves. So again, a 
comprehensive package that would meet those needs across the 
board.
    The other thing we had was with private housing, we are 
having situations where--and obviously that is a money-making 
enterprise and any businessman is going to want to make money, 
but they pressure clients, they use intimidation methods to get 
clients to break their leases, to leave early, so that the 
landlord can turn around and rent that place for twice as much 
money the next month. To refuse to make repairs on the 
property, so they end up living in mold-infested housing 
because the landlord is hoping that the client will give up and 
move out so that then he can make the repairs and charge twice 
as much for the property. Our recommendation on that would be 
the landlords not be able to raise their rental prices for 6 
months after a storm to give the community time to adjust.
    Chairman Ney. Your time has expired. You may summarize and 
then we will come back with questions.
    Ms. Bowling. That is all.
    [The prepared statement of Ms. Cox Bowling can be found on 
page 72 of the appendix.]
    Chairman Ney. We will move on to Ms. Davis.

    STATEMENT OF LANELLE DAVIS, EXECUTIVE DIRECTOR, HOUSING 
        AUTHORITY OF THE CITY OF LONG BEACH, MISSISSIPPI

    Ms. Davis. First of all, I would like to note that I am a 
Katrina victim; I lost everything. I lived in Long Beach but I 
will be a Katrina survivor; I plan on coming back. I am being 
told that it will likely be 18 months before we can start 
building.
    I am executive director of the Housing Authority of the 
City of Long Beach. I have been there for 35 years, rebuilt it 
immediately after Camille, and I still operate it.
    Prior to Katrina, I spent 2 days out there boarding up and 
notifying the tenants of the coming hurricane, which was 
routine procedure for us. As it turned out, we were preparing 
for a storm that was not really routine.
    After Katrina, I got there about 9:00 on Tuesday morning, 
proceeded to go through the subdivision that I have, we had 100 
percent damage. We went door-to-door checking to see if we had 
any fatalities or any injuries, which fortunately, we did not. 
We did have damage to all of our units. We went to check 
points, got ice, water, and supplies. We took groceries to our 
office for them to come to us, most of them did not have 
transportation at the time.
    We immediately notified insurance and FEMA, and applied for 
the emergency funding that HUD had, at that time it was $29 
million. Out of the $29 million, only one housing authority in 
the State of Mississippi was funded. There were five coastal 
authorities that were damaged very heavily in Katrina and out 
of that, we got approximately $68 million to $100 million 
damage just in housing stock. Some of them had to be 
demolished. I am fortunate, I can rebuild or repair. So far, we 
have received no funding from HUD or from FEMA to either 
rebuild or repair.
    Chairman Ney. I am sorry, just for clarification, when you 
say we have not received funding, you or the housing authority?
    Ms. Davis. The housing authority.
    Chairman Ney. Sorry.
    Ms. Davis. The housing authority. As I said, only one in 
the State of Mississippi has been funded through the emergency 
fund.
    The funding that has come through in 2006, we do not have 
access to because it is strictly for 2006 and our disaster was 
in 2005.
    The FEMA/HUD policy that goes back to 2001 prevents or 
prohibits FEMA from funding any permanent repairs to any of our 
units. They can only reimburse for emergency repairs. This was 
signed in 2001.
    The money that the government has allotted to the State of 
Mississippi basically is going to help homeowners; it will not 
help the rental people. We house the needy, the seniors, the 
disabled, and the poorest of the poor working.
    The housing stock is not here. You can give us all the 
vouchers you want, but if you do not have the housing stock, we 
cannot house people. We have relocated people out-of-State, we 
have relocated people in the State, and we have gotten eight 
units ready since Katrina that we have put people in that was 
damaged.
    Again, we do not need more paperwork, we do not need more 
proposals, we do not need more applications to have to fill 
out. We need funding. We need funding now, not next year, or 
not 2 years from now.
    That is basically all I have to say.
    [The prepared statement of Ms. Davis can be found on page 
114 of the appendix.]
    Chairman Ney. Thank you very much. Mr. Davis.

STATEMENT OF WALLACE DAVIS, CHIEF EXECUTIVE OFFICER, VOLUNTEERS 
                      OF AMERICA-SOUTHEAST

    Mr. Davis. Thank you very much for giving us the 
opportunity, Chairman Ney, Ranking Member Walters and other 
distinguished members of this committee. Thank you very much 
for what you have done, for the resources that you have brought 
to our communities all along the Gulf Coast from Mobile to New 
Orleans and thereabouts.
    Katrina was far bigger than any governmental agency. I 
think there are a lot of good Katrina programs that are 
working. There are a lot of gaps, there are a lot of people 
falling through the cracks. But I am grateful for our 
government, for the response that this committee and others in 
our government have made and I thank you very much.
    I would like to basically highlight one non-governmental 
resource that provided critical help immediately following the 
storm, and that is the overwhelming response of the faith-based 
community. People in this community, people of faith, came out 
of their wrecked homes and their wrecked sanctuaries and began 
to minister and to help one another. People from all over this 
country came because of their faith and they responded to the 
needs of the people in this community and to all the victims of 
Katrina. They had no red tape to cut, they had no bureaucratic 
process to go through, they just did because it was their 
higher calling to do.
    Volunteers of America, which I have been a part of for the 
last 27 years, is a faith-based group since 1896. And during 
that time, we have been motivated by our faith to reach out. 
During this time in the days following Katrina, in partnership 
with faith groups and churches, we established eight relief 
sites, four warehouses, two medical clinics, one of them right 
here in this community not far from here, and we served over 
20,000 patients in those clinics. And in the relief effort, we 
served 70,000 individuals needing help.
    We have helped people to rebuild their homes and to muck 
out their homes and to start over, and helped some businesses 
as well. And all that cost the Federal Government not one red 
cent.
    Sometimes I think the Federal Government overlooks the 
powerful resource that we have in our faith-based community. 
The response has been overwhelming. Our country has seen the 
best of the faith community. Somehow, I believe the artificial 
wall that separates the faith community and the governmental 
community must be torn down, torn down to the extent that we 
can work together to achieve our similar goals and our similar 
objectives. Government must see the faith community as one of 
the community's most valuable assets and bring it to the 
planning table before and after all disasters.
    My hope is that Katrina will change forever the way 
churches minister to people in the community and the way the 
government responds to the faith-based community. As we move 
forward, please see the faith group as one of the valuable 
resources.
    As I tried to think about what you all have said this 
morning and as I was preparing my remarks, I have one very 
basic guiding principle that I would like to suggest to this 
group. And then as I have heard you this morning, I realized 
that you do not need my suggestion. And that is the very simple 
principle called KISS, keep it simple and smart. That is what 
we need in government. This is what these folks have said, this 
is what the folks said before, and this is what you said you 
wanted from the agencies of government as well as the agencies 
in the community. Keep it simple.
    It is simple and smart to embrace the faith community. Let 
me tell you a quick, quick story. There was a church in this 
community in Biloxi, that through the compassion faith monies 
that we received from HHS, we gave that church $10,000 to build 
a community feeding kitchen to feed the homeless people on 
Saturday and Sunday. Would you believe that 8 months later, one 
day after Katrina, that church in Biloxi was up and they were 
the first responders in the community feeding the people who 
were hungry. Now that is about the best investment I have ever 
known the Federal Government to invest $10,000, to feed hungry 
people. They were preparing using the faith community for the 
next disaster and for what was going on right there.
    It is simple and it is smart to embrace the faith 
community. It is also simple and smart to keep people in hotels 
on a voucher system when there is no housing stock out there no 
matter how much money you have.
    It is simple and smart not to fight it every month in the 
court system either, just let it be, pay the bill and let 
people have a place to live and do not let them have a fear and 
intimidation that they are going to be kicked out and they do 
not have any security, they do not know how long they are going 
to be there.
    It is simple and smart, in Bayou La Batre, we have got 
boats in trees and in marshes. It would be simple and smart to 
get those boats out of the trees, out of the marshes, back into 
the water fishing and shrimping. I got some good news today in 
the Mobile Press Register though, I saw where we are getting 
some foreign aid now to help us get our shrimp boats out of the 
trees and the marshes.
    Chairman Ney. Which country?
    Mr. Davis. Sir?
    Chairman Ney. Which country?
    Mr. Davis. They did not identify which country but there 
has been a lot of countries that have given some monies and 
they figured out that they can--
    Mr. Taylor. The Coast Guard is going to do that. If you 
were to go to the Industrial Seaway, the Coast Guard has 
already put dozens of boats back in the water. That function is 
going to get done.
    Mr. Davis. Well, it has been--
    Chairman Ney. Your time has expired. We have eaten away a 
little at your time, but if you could summarize.
    [Laughter.]
    Mr. Davis. I would encourage you to find simple and smart 
ways to respond to the needs of people and that we do it 
together, not forgetting the faith community, bring everybody 
to the table because I believe you will find tremendous 
resources in our faith community and keeping government simple 
and smart.
    [The prepared statement of Mr. Davis can be found on page 
120 of the appendix.]
    Chairman Ney. Thank you, sir. Mr. Eide.

  STATEMENT OF PHIL EIDE, ENTERPRISE CORPORATION OF THE DELTA

    Mr. Eide. Thank you. I also want to thank you for the 
invitation to be here today and thank you for taking the time 
out to see for yourselves what we have ahead of us.
    I also want to thank you for sending the CDBG funds down. 
It will be a big help as we begin this, continue this 
rebuilding process.
    I work for Enterprise Corporation of the Delta and Hope 
Community Credit Union which are two statewide organizations 
with a track record of working with especially low and moderate 
income families for more than a decade. We have partnered with 
local banks, State government, Fannie Mae, and national 
foundations to provide and leverage our funds for commercial 
loans, mortgage loans, and consumer loans for the last 10 
years. Our biggest challenge lies ahead.
    I would like to talk a little bit about demographics of the 
region that was hardest hit. Using census data, the median 
family income is about $40,000 per year or $10,000 less than 
the national average. Poverty rate is about 18 percent, 5 
percent higher than the national average. Home ownership rates 
are in the mid-50 percent and the median home value is about 
$85,000. Demographics for the African-American community are 
much lower. The median family income is under $30,000 per year 
with poverty rates nearly 30 percent. Home ownership rates are 
well under 50 percent and the median home value is under 
$65,000.
    After working in this area, we feel it is important that 
this is not lost in the whirl of spending and activity, 
especially with significant CDBG funds arriving. Waving a check 
and hoping for the best will not be enough for those who are 
especially at risk, the elderly citizens, those with 
significant assets to lose if the work is not done properly, 
and those who are not used to working with contractors. As word 
gets out about money being available, unscrupulous contractors 
will be around to take what they can without rebuilding.
    Shortly after Katrina hit, ECD began conversations with the 
Enterprise Foundation and others to craft a meaningful response 
and get private solutions. We set about creating a pilot 
project that would begin rebuilding. With the help of John 
Grisham, Fannie Mae, the Home Depot Foundation, and Freddie 
Mac, we have raised about $5 million to date.
    We are providing counseling services to those who initially 
request help, including helping with their current insurance, 
their FEMA payment, and the gap needed to rebuild the property. 
A construction specialist then inspects the home to determine 
what is needed and prepare a write up that is presented to the 
contractor.
    A financial counselor works with the family to determine 
the best options for refinancing, paying off other debt, and 
ensuring the construction job is completed.
    Finally, a construction supervisor oversees the 
construction and the payoff so that the task is correctly 
completed.
    We believe this is the best way to ensure rebuilding is 
done to the current code and standards and is acceptable to the 
owner.
    We expect to provide about $80,000 on average to each 
family in subsidy funds during this pilot phase which will last 
about 6 months. These will generally be grants. They will also 
include loans that are forgiven as the owner continues to 
occupy the property and some low interest repayable loans. The 
pilot will include 50 new homes in Pass Christian and about 50 
rehabs in Biloxi at this point. As we raise additional funds, 
this effort can be expanded as needed. Administration costs 
will be kept low and we are projecting well under 5 percent 
when the project is done. The money is spent on rebuilding, not 
administrative costs.
    Figuring out the new FEMA elevations and providing 
affordable housing at the new elevations is going to be 
difficult at best. Any help you can provide in figuring out 
some reasonable solutions will be helpful.
    We are confident that we can provide these services and 
funds to help many people rebuild during this pilot phase and 
provide counseling, construction services as funds come into 
the region.
    I want to thank you again for being here today and for your 
commitment to keep our region in the minds of your colleagues 
in Washington. With the cooperation of government, lenders, 
foundations, and non-profit organizations, I believe we can get 
the job done.
    Chairman Ney. Thank you, sir. Ms. Griffin.

 STATEMENT OF CYNTHIA P. GRIFFIN, EXECUTIVE DIRECTOR, HABITAT 
                   FOR HUMANITY/METRO JACKSON

    Ms. Griffin. I, too, would like to thank the subcommittee 
for your work and for allowing me to be here today.
    A toddler learns early on that it is much easier and 
quicker to knock down a tower of blocks than it is build one. 
To build, it takes patience, coordination, and discipline.
    We know it will take years to rebuild, but we urgently need 
to start now. Every day that goes by leaves more and more 
families without hope and choices and deeper in despair and 
financial ruin.
    Affordable housing must not be overlooked as the rebuilding 
process begins. Low income housing was in short supply before 
the storm hit. Rents before the storm were an average of $700 
to $900 a month. They are currently up to $1,500 and more. It 
is imperative that each of us be advocates for affordable 
housing.
    Four days after Hurricane Katrina, Habitat for Humanity 
International announced an unprecedented response to an 
unprecedented national disaster. Habitat's plan is to be poised 
and ready to build in a big and fast way when it is appropriate 
to start building. Habitat will mobilize and utilize the energy 
and desire of tens of thousands of volunteers and donors from 
across the country and around the world.
    During the first weeks after the storm, Habitat affiliates 
from across the country provided funds and materials and built 
modular housing components called homes in a box, for shipment 
to the devastated areas. Habitat affiliates have built 300 
homes in a box. The first Habitat for Humanity home on the 
Mississippi Gulf Coast is scheduled to be built February 6th in 
Gulfport. The Home in a Box Program was designed as a first 
response, but as building becomes possible, Habitat for 
Humanity will utilize a variety of building options to maximize 
production.
    Habitat for Humanity Metro Jackson is one of the largest 
Habitat affiliates in the Nation and being on the fringe of the 
disaster area, we knew we had to help our neighbors. Joining 
with the Harrison and Jackson County Habitat affiliates, 
Habitat Metro Jackson has expanded to serve in the Hancock 
County area. Before I made my first visit to the Hancock County 
area after Katrina, my enthusiastic determination to begin 
rebuilding was unencumbered by the reality of the huge barriers 
that impede our progress today.
    While the Governor's Commission made an impressive and fast 
start in leadership and planning, other vital information comes 
in bits and pieces over much time. For example, the FEMA flood 
maps, information about the national Federal assistance and 
insurance settlements, and feedback on how to deal with the 
issue of lack of flood insurance have all trickled in slowly. 
These issues, coupled with the incredibly mammoth and time-
consuming task of debris removal and disposal, the challenge of 
finding temporary housing solutions, and the lack of water and 
sewer infrastructure for trailers and homes, has created a 
depressingly slow building response.
    Habitat Jackson and the other Mississippi Coastal Habitat 
affiliates are being joined by Habitat for Humanity 
International and its hurricane recovery program, Operation 
Home Delivery, to address the housing needs on the Mississippi 
Gulf Coast. Our efforts could be greatly advanced in the 
following areas:
    First and foremost, locating buildable property. The 
availability of property with necessary infrastructure of 
roads, utilities, water, and sewer at an acceptable elevation 
has proven hard to find. Some communities have no property that 
would fit these criteria. So the first and foremost need for 
short term building to begin is property at the appropriate 
elevation, or C zones, with roads, water and sewer, utilities; 
or barring that, an economical and fast way to establish 
infrastructure for undeveloped properties in these areas.
    Habitat for Humanity is actively seeking partners 
interested in developing mixed use, mixed income developments. 
Habitat works to create communities, not projects.
    Streamline permitting and site design and filing process so 
building can begin as soon as possible.
    An increase in the number of tradesmen and contractors 
willing to work at reasonable rates, resisting the price 
escalations that push more and more families into substandard 
housing solutions.
    And an efficient and well supplied pipeline of building 
materials to circumvent slowdowns due to material shortages 
once building begins.
    With the above recommendations implemented, Habitat would 
be poised to mobilize the thousands of volunteers ready and 
willing to begin work on the Mississippi Gulf Coast. We 
recognize the fact that Habitat alone cannot be the solution to 
all of the housing needs along the coast and we are working 
with other organizations and entities to have a greater impact 
on more people.
    Chairman Ney. Your time has expired. If you would like to 
summarize.
    Ms. Griffin. Habitat is committed to rebuilding and will 
bring the necessary resources at its disposal to help as many 
families as our resources allow.
    Thank you.
    [The prepared statement of Ms. Griffin can be found on page 
129 of the appendix.]
    Chairman Ney. Thank you. Mr. Derrick Johnson.

   STATEMENT OF DERRICK JOHNSON, PRESIDENT, MISSISSIPPI NAACP

    Mr. Johnson. Good morning, Chairman Ney, Ranking Member 
Waters, and members of the committee. My name is Derrick 
Johnson and I am the State President for Mississippi NAACP.
    I am going to raise two issues here this morning. One will 
be the dire need for affordable housing and the second will be 
oversight of the CDBG funds that are coming to Mississippi.
    NAACP got involved in Katrina as a result of our local 
branch president here in Biloxi issuing a call because of the 
lack of response from FEMA, Red Cross, and other relief 
agencies in African-American communities on the coast.
    As a result, on the Saturday following the hurricane, we 
began to deliver a supply truck to East Biloxi; we were the 
first to deliver those supply trucks. East Biloxi is a 
community that is predominantly African-American with a very 
large Vietnamese working class population and black working 
class population that was pretty much left out in the aftermath 
of Hurricane Katrina.
    As a result of that, we began to establish additional sites 
across the Gulf Coast to provide food and other essential items 
in African-American poor communities to ensure that our 
communities were served, because of the lack of response from 
relief agencies and FEMA. In Biloxi, we established our first 
site on Saturday following the hurricane; in Gulfport that 
following Sunday and in Moss Point, I believe, the following 
day.
    What we discovered was a wholesale lack of information 
provided to working class Mississippians across the Gulf Coast, 
irrespective of color, but particularly those African-American, 
Vietnamese communities and the handicapped community were not 
served at all.
    Following that, we were able to negotiate some 2 weeks 
later, the Red Cross to begin opening recovery centers in our 
communities, the first being at United Methodist Church in Moss 
Point, the second being right here in Gulfport at our office 
out near Fredericks and then following with several others 
after that.
    Our next goal was working hand-in-hand with Congressman 
Thompson on the issue of minority contracts. We found that 
minority contractors were locked out, but pretty much all 
Mississippi based contractors were locked out. We tried to work 
with Bechtel and other companies to try to utilize the skills 
of local contractors, but to no avail. And in some minor 
instances where they were hired to do debris removal, where the 
general contractors were paid $18 to $20 an hour, they ended up 
being paid $6 an hour, well below what they could earn as a 
decent living considering the high price of gas.
    I was later invited to serve on the Governor's Commission 
and became one of the vice chairs of the Governor's Commission. 
The Governor's Commission was a good effort to make people feel 
like there was some activity going on. And as a result of the 
Commission's report, our focus was on housing. We had a very 
comprehensive housing report to come out of that Commission, it 
focused mainly on affordable housing to assure that renters, 
elderly and others who would normally be out of the mainstream 
of home ownership would be properly taken care of.
    Unfortunately, to date, that Commission's report which was 
submitted to the Governor, from my understanding has not been 
part of the recommendations from the Governor in terms of 
community development. The Governor's proposal would include a 
proposal that has been repeated here earlier for homeowners who 
had insurance prior to Katrina, who lived outside of the 
floodplain but didn't have flood insurance.
    One of the groups that is completely left out of this 
proposal are home renters, which many African-Americans and 
other working poor on the coast happen to be home renters, 
especially those who work in the casino industry. There is no 
provision in the CDBG funds that I am aware of that would allow 
any sum of money for this population.
    A second group that we are really concerned about are 
senior citizens on fixed income. A gentleman and I were talking 
and he told me about an elderly gentleman, 84 years old, who 
owned his home for the last 20 years. He was on a fixed income, 
social security, and could not afford to keep up the payments 
on the insurance. Under the Governor's plan as proposed, this 
individual would be left out of the CDBG funding. I suspect 
that there will be many more who fall in this category.
    In addition to that, when the question was asked by State 
senator Earl Williamson to the Governor about this particular 
scenario, the response was there was no appetite to reward 
irresponsible behavior; in other words, there was no program to 
be offered. I find this to be unfortunate and unfair for those 
who worked all their lives simply to buy a home and retire in 
peace.
    Under current Mississippi State law, there is no legislated 
oversight over CDBG funding. Funds are given directly to the 
Executive Branch and the Executive Branch then allows the 
Authority to decide who will administer the funds. Currently 
that will be the Mississippi Development Authority. Without any 
type of oversight, without the huge gaps in individuals who 
will not be covered by CDBG funds, we will find that the 
Mississippi Gulf Coast will pretty much cleanse itself of low 
income working individuals because there will be no option or 
very few options for them to be able to rebuild.
    Chairman Ney. Your time has expired. If you would like to 
summarize.
    Mr. Johnson. I ask this committee to do two things. One, 
reconsider how CDBG funds are appropriated in the State of 
Mississippi, and secondly, work to ensure that individuals who 
would be left out of CDBG funding as proposed by the Governor 
somehow be included, because if they are not, we will have a 
large population of our citizens who are left out of this 
process.
    Thank you.
    [The prepared statement of Mr. Johnson can be found on page 
131 of the appendix.]
    Chairman Ney. Thank you. Ms. Shantrell Nicks.

   STATEMENT OF SHANTRELL NICKS, ATTORNEY AND LOCAL RESIDENT

    Ms. Nicks. Good afternoon. My name is Shantrell Nicks, I 
practice law in Gulfport, but I am currently assisting my 
community in recovering from Hurricane Katrina.
    Congressman Ney, Ranking Member Waters, and other 
distinguished members of the committee, I would like to thank 
you for this opportunity to speak with you today about the 
government's response to emergency housing needs of residents 
affected by Hurricane Katrina.
    I resided in Mississippi my entire life. I am proud to say 
that before Katrina, 72 percent of Mississippians owned their 
own home. This is 4 percent higher than the national average. 
In fact, more African-Americans own their own home in 
Mississippi than in any other State in the union, at 61 
percent.
    Katrina struck the Gulf Coast. She caused wind, rain, and 
flood damages that were unprecedented. Most homeowners were 
insured for hurricane damage, which we thought would cover a 
hurricane.
    All of the damage to my home was caused by wind-driven 
rain. I also had mold coverage.
    But, I have yet to be fully compensated by my insurance 
company. They will not give me in writing what they have 
covered or if and when I will receive additional insurance 
proceeds for the subsequently discovered damage. I first 
thought that I had very little damage, but the walls were 
soaked and as we waited for our insurance proceeds to fix our 
home, the mold grew and now my family of four live in two rooms 
of our house. I consider myself fortunate and blessed, as 
others do not even have two rooms. They have a cousin's couch, 
a tent or a shelter, or perhaps a small trailer.
    Insurance companies have refused to cover damage that 
resulted from flood damage. This is a complex case, but so far 
we are told nothing will change. There is talk about Federal 
money going to the State, but so far no money has trickled down 
to the people, so we are skeptical and wondering if the 72 
percent of Mississippians will continue to be homeowners.
    We are also told to be patient and not to rock the boat as 
the insurance companies may leave the State or will not insure 
homes on the Gulf Coast. Well, I know one person that has 
already attempted to buy insurance on property that she bought 
after Katrina, and she was told that no major insurance 
companies will insure homes and that she should contact a local 
person where the premiums were much higher than what it would 
have been prior to Katrina.
    As for FEMA, FEMA's policy is that insurance companies must 
act first and then they will see. The insurance companies are 
not acting or they are offering such little money, such as 
$9,000 for losing a three bedroom house with all the contents. 
The people want to contest the settlement; however, FEMA 
requires that it be settled before they pay.
    FEMA has said that some areas are high-impact areas and 
they will not need inspectors, and that the money is coming. 
However, the working insured American individuals have not 
received that money. I have asked FEMA about this again and 
they say they have to wait until the insurance company pays and 
that it is illegal for them to act prior to the insurance 
company. Therefore, the Federal Government's response to 
insured individuals has been inadequate. The FEMA regulations 
penalize and overlook individuals for being responsible and 
paying their insurance premiums.
    In the end, it seems as though there is a crisis of 
leadership. There is no oversight of the insurance industry. 
They are allowed to cite the magnitude of the disaster as a 
cause for delay, but now it has now been over 4 months since 
the storm.
    Now a natural disaster has turned into a human disaster. 
The people of our community have worked their whole lives to 
achieve the American dream of ownnership and a better future 
for their children. We went to school, we got jobs, we bought 
homes and paid our bills and insured our properties.
    We have been told that help is on the way and that money is 
there but we are starting to give in to the skeptics that say 
that Katrina was an easy way to clean out the lower and the 
middle income Americans from the Gulf Coast and make way for 
those of greater means.
    As a taxpayer, and a homeowner, and someone who faithfully 
paid insurance premiums year after year, I respectfully request 
that you make the insurance companies accountable so that the 
taxpayers will not have to subsidize the insurance companies 
with FEMA grants.
    I would also request that Congress appoint an independent 
oversight entity to investigate and ensure that the Federal 
monies are allocated wisely.
    I think the FEMA trailer allocation should be spent much 
more wisely. The amount of money, effort, and time being 
exhausted in setting up these trailers could be used to do 
prefabricated homes which provide families with a more 
permanent housing solution. Furthermore, the government 
contractors are issuing FEMA trailers and are not taking into 
consideration people with handicaps and not providing the 
citizens with a forum to voice those concerns. I personally 
went to a site on Menge Avenue to speak with someone about a 
handicapped individual who needed a trailer. I was ordered to 
leave and speak with George Bush about my concerns.
    In closing, accountability is the key for the insurance 
companies.
    Thank you.
    [The prepared statement of Ms. Nicks can be found on page 
137 of the appendix.]
    Chairman Ney. Thank you. Next, the Reverend Rosemary 
Williams.

  STATEMENT OF REVEREND ROSEMARY WILLIAMS, MOUNT ZION UNITED 
                        METHODIST CHURCH

    Rev. Williams. First let me express my gratitude to 
Chairman Ney, Ms. Waters, my Congressman, Gene Taylor, my 
colleague in the ministry, Rev. Cleaver, and others of this 
group. Your presence is truly a representative of Christ's 
leadership style--leadership that is rooted in service and 
sacrifice for others.
    I am a native Mississippian and I have lived here all my 
life. I am the pastor of Mount Zion United Methodist Church in 
Delisle. Delisle is located approximately 5 miles, 6 miles from 
Pass Christian, which was heavily damaged by Katrina.
    Katrina was good to the physical structure of Mount Zion. 
Mount Zion still stands and we share our church with three 
other congregations, two Baptist and one of my husband, 
Theodore Williams, which is St. Paul United Methodist Church in 
Pass Christian.
    Katrina has been a blessing and Katrina has been a burden. 
She has blessed me with an opportunity to extend God's love, 
grace, and generosity to a wider community, a community that my 
husband and I have known well for we both taught in Pass 
Christian schools where I retired in 1996 to go into the 
ministry.
    I toured Pass Christian after the storm. Our first thought 
was to go and to find our parishioners, to see that they were 
safe. I also toured Pass Christian after Camille. After 
Katrina, the houses had faces on them, faces of parents whom I 
had worked with, faces of children whom I had taught, and 
parishioners of ours. The devastation was incomparable to any 
that I have ever seen. We thought Camille was bad, but it is no 
comparison to what Katrina did to our community.
    The church has always been the center of community 
assistance in this region. Mount Zion immediately went into 
action to open her doors for people to live, for people to put 
camps, to go across State lines and bring gasoline back, to 
bring food in, to feed the people in the community, and to give 
them spiritual support, and moral support in a time of great 
loss. We even purchased small heaters for the trailers after 
they began to be given out, so that our handicapped and our 
older citizens would not have to worry with trying to see that 
they kept gas in the little tanks that they have on their 
trailers.
    We have given in all of the ways that we can, but we need 
financial assistance that is beyond a resource that we can 
produce. We read in the papers about block grants and billions 
of dollars being generously allocated by the American taxpayers 
and donors, but before Katrina and post-Katrina, the money has 
not made its way to the people who need it the most.
    Housing is our biggest priority. Our community cannot 
survive without housing. The jobs will come and have come back, 
but people must have a place to live. Many members of my 
community are on a fixed income and have paid off their homes 
in full. Without any payment from the insurance companies, and 
as of yet no money from FEMA and no SBA loans, they are living 
day-by-day, often in mold-infested homes. Others still have 
debt on their homes.
    We are grateful for the FEMA trailers that have arrived. 
But they are not a long-term solution and many are still living 
with relatives and friends. The uncertainty is starting to 
unhinge the strongest.
    My church has 20 acres that we have spent the last 4 months 
trying to determine how we can work in concert with the 
community to develop affordable housing. We have not yet been 
able to move forward as the local community is without public 
assistance funds to build the infrastructure. This property is 
on high ground, but we have not been able to break ground. This 
property can provide for a blended community without houses on 
stilts that make me fearful for my older and handicapped 
citizens.
    We are also working with a private donor who has purchased 
a large piece of property across from our future housing 
development that will serve as a community center for educating 
young adults who have dropped out of school or need some type 
of employment training.
    Chairman Ney. Your time has expired. If you would like to 
summarize.
    Rev. Williams. We ask if you will consider helping us do 
the infrastructure for Mount Zion United Methodist Church in 
order that we can be a part of the healing of our community and 
bringing homes back to our people, affordable homes.
    Thank you.
    [The prepared statement of Rev. Williams can be found on 
page 177 of the appendix.]
    Chairman Ney. Thank you. The last witness is Pastor Carlton 
L. Jones.

   STATEMENT OF REVEREND CARLTON L. JONES, SECOND SWEET HOME 
                 CHURCH, GULFPORT, MISSISSIPPI

    Rev. Jones. First it is an honor to have you come to us, 
the Honorable Mr. Ney and the rest of your committee. We thank 
you for coming a whole lot and we praise God for your visit.
    Thank you for this opportunity to speak on behalf of a 
hurting community, but one that continues to trust God and to 
work to make a better life for our citizens.
    The greatest need for the Subcommittee on Housing and 
Community Opportunity would be to fully fund--we are asking 
that these needs would be fully funded by a community block 
grant to assist low- and moderate-income homeowners, and to 
assist in good and viable rental projects.
    The community's needs are greater than the small community 
block grant amounts being given to the City of Gulfport. Many 
of our citizens are disheartened, and they feel let down as 
millions and even billions of dollars are being talked about 
and criteria assigned that will leave us completely out of the 
picture and other criteria that will make us disappear from the 
picture altogether.
    We hope we will not be left behind. We need more senior 
citizen complexes. We are still in need of funding to assist 
senior citizens who have their homes and have had them for more 
than 30 years and help them to upgrade their homes. We need 
support for young families to neighborhoods but we must have a 
police visibility and greater police community funding.
    We need to support communities the same as many decades 
ago, we need continued revitalization of our neighborhoods, 
affordable mom and pop small businesses with educational 
centers inside of our communities to expand their knowledge of 
marketing and business plans to use their God-given talents to 
re-open businesses again in our communities.
    We need public housing that addresses mixed income 
neighborhoods and looks like hope, not poverty.
    We need support of funding for early childhood education 
programs such as Head Start.
    We need training programs for youth to continue the Job 
Corps and summer training programs and summer camp programs and 
the facilities to give quality summer camp. We want to expand 
and upgrade the Boys and Girls Clubs, expand community 
libraries, computer education centers and etc.
    I want to go back and recap some things because I have been 
working in this community since Katrina and since before 
Katrina hit, and I just am really thankful for what you are 
doing, but there are some other needs that I think if we could 
make it happen, it would greatly assist us.
    I would ask you to exhort the media to continue to 
communicate the needs of the Gulf Coast area, because there is 
an old saying, ``out of sight, out of mind.'' And right after 
Katrina first hit, it was aired all over the Nation. Now there 
is very little airing going on. I think that the community, 
church community, has great programs throughout this Nation and 
many others have already touched on how great the church 
community--they are saying faith-based, but I do not see a 
problem saying the church community--has played in this role.
    The second week, we had churches from all over the Nation 
in our neighborhoods and they were really assisting us. Red 
Cross did not make it to many of my neighborhoods until the 
fourth week.
    I am asking that we would allow the church community or 
faith-based community to sit down and help to devise a plan 
where they have such plans as the Nehemiah Rebuilding Program, 
Joseph Project, etc. And you know, the church community is a 
champion of reaching out and rescuing people and I think it 
would be a great tragedy to push them aside, push the church 
community aside, and not grab hold of the information that we 
already have and that has been in use.
    There was also something else that I noticed. It took 
awhile for our people to get into the FEMA offices, to get into 
the Red Cross offices and then there was the human services. 
They did a great job and I asked one of the head persons why 
did they do such a great job of getting people in and getting 
them out and their secret was they had over 200 people taking 
applications and working those applications. When I went over 
to the FEMA office over in Ocean Springs, they would have maybe 
a dozen, maybe a few more, and that is why it took so long 
because there was not too many people working those 
applications.
    Chairman Ney. Your time is expired. If you would like to 
summarize.
    Rev. Jones. Yes, sir. Also, I want to ask that we tap the 
private sector. There are many of those who just moved in and 
those kinds of things that would gladly give support to the 
elements here if we would just ask them.
    Thank you for the opportunity to speak. We pray God's 
blessing upon each of you and your families.
    [The prepared statement of Rev. Jones can be found on page 
135 of the appendix.]
    Chairman Ney. Thank you, sir.
    Before we move on to questions for the witnesses, without 
objection, I would like to insert a statement for the record by 
Bobby Rayburn, president of Rayburn Associates, to the House 
Financial Services Committee. He is a homebuilder. Something 
happened to his flight and so he could not get here. He is 
former president of the National Association of Home Builders.
    Also for the record three items--a letter from Bechtel to 
myself as Chair; a statement from the Mississippi Association 
of Housing Redevelopment Officials and again, the statement I 
mentioned of Bobby Rayburn. Without objection, they will be 
part of the record.
    I just have a couple of questions I wanted to ask. I want 
to thank all of you for good testimony.
    I want to ask the housing authority--I am sorry for your 
personal loss of your home, but I want to ask the housing 
authority about Section 8. Are any people on Section 8 and has 
that followed them to other areas or any comments on Section 8?
    Ms. Davis. We have relocated several of our residents--
    Chairman Ney. I am sorry, could someone get her a 
microphone?
    Ms. Davis. Under our Section 8 program, a lot of our 
residents were south of the tracks. We have relocated some of 
the Section 8 people to other areas, other States. We are 
getting a few units back on line for Section 8 vouchers. We 
have put one of our Section 8 residents in a FEMA trailer on 
our property because we could find no place to put FEMA 
trailers for our Section 8 residents.
    Housing is just not there. Even with the vouchers, the 
rents have gone so high that we cannot house people because the 
fair market rents are not high enough.
    Chairman Ney. Because the fair market rent is not high 
enough?
    Ms. Davis. Yes.
    Chairman Ney. I wanted to ask another question. I know you 
do not have statistics maybe on this, but we talk all the time 
about the housing authorities of course never have enough of 
the vouchers in the regular course of business.
    Now as far as what I will call the new Section 8, you have 
people who want Section 8 and now you have a lot of people who 
have lost their homes and did not have insurance, it is going 
to create a whole different group of people now who are going 
to get on Section 8. Have you had people approach you that have 
never been on Section 8 before and now are considering that?
    Ms. Davis. Yes, sir. But there is absolutely no housing 
stock.
    Chairman Ney. I assume you do not have the ability either.
    Ms. Davis. Yes.
    Chairman Ney. One other question I wanted to ask is what 
about projects that were underway or what about units that had 
been built, multi-family, single-family, as we saw. There were 
six projects up in New Orleans, we saw other housing complexes, 
one that was built in the 1940's, I doubt it can be rehabbed, 
it is going to have to be ripped down and everything I have 
seen down here cannot be rehabbed because things are in pieces 
from Katrina. Did you have units that people lived in that are 
gone?
    Ms. Davis. We have had quite a few units that had to be 
demolished. The Waveland Housing Authority has been demolished. 
Some of the Bay St. Louis Housing Authority has been 
demolished. Also your Region 8, which is in Gulfport and Biloxi 
had to be demolished. I did not demolish any of mine at this 
point. We had structural damage but I think we can rehab them 
easier than we can rebuild it.
    Chairman Ney. This is a personal opinion, but I just feel 
that somewhere along the line, where we had units, the 
government is going to have to pay to rebuild. The housing 
authorities are not going to have the ability to--
    Ms. Davis. Without funding, they cannot be rebuilt.
    Chairman Ney. It is part of the process, like Habitat for 
Humanities does a piece of the housing and there are all 
different types of situations to get people in some form of 
housing, but I just thought if they are gone, they have got to 
be rebuilt.
    The one other question I had of Mr. Johnson. You are 
talking about oversight of--there needs to be oversight of 
Mississippi of the CDBG or oversight by the Federal Government 
in regards to Mississippi?
    Mr. Johnson. Well, currently under Mississippi State law, 
there is no provision for oversight by the legislature. CDBG 
funds are given to the Executive Branch, the Executive Branch 
issues the funds, and there is no oversight at all from the 
legislature.
    We are talking about in excess of $4 billion. That is just 
a few million dollars short of our total State budget and we 
would find it inherently unfair if, without any public input, 
without any legislative oversight and entitlement cities being 
taken out of the process because with the new legislation, it 
goes directly to the Executive Branch and entitlement cities do 
not have any say. There needs to be a level of oversight to 
ensure that those funds are properly distributed to the 
communities who are most in need.
    Chairman Ney. Thank you. I wanted to ask Mr. Clark a quick 
question. How has the VA been--I know it is not an ideal 
situation to have--I have dealt with the Paralyzed Veterans 
Groups for years, how has the response from VA been recently as 
far as temporary situation?
    Mr. Clark. I met with now General Spraggins and the 
emergency operations center. We have got all the medical 
facilities here, and a good VA and those veterans with spinal 
cord injuries, spinal cord disease, and dysfunction who were 
considered high risk, high-level quadriplegics, we got with the 
VA and got them served and got them out of the area. 
Immediately after the hurricane, I met with the directors of 
the Biloxi VA Medical Center, the Jackson VA Medical Center, 
the Memphis VA Medical Center, and the New Orleans VA Medical 
Center, and set up immediate replacement of any and all 
hospital beds or equipment that was lost, immediate input of 
medical supplies, prescriptions being transferred down to the 
Biloxi VA Medical Center. This way the vets could come into the 
area, if they had a problem, I got on WLOX and announced that 
the VA had come up with this program. VA has been excellent in 
addressing the needs of the veteran population.
    The problem that I see is the non-veteran disabled 
population. They have run into a lot of issues on trying to get 
chairs replaced, you know, through Medicaid or Medicare, 
private insurance. What we did, I had a corporation out of 
Florida contact me and say what type of supplies or medical 
equipment do you need to get out to your veteran members. I 
informed him that if he was wanting to send anything down, we 
would get chairs and medical supplies down to the disabled 
community as a whole, because the vets would be taken care of 
by the VA. So he then had convoys come in and they got with the 
University of Southern Mississippi out of Long Beach now 
displaced from the hospital in Gulfport, but they brought the 
supplies to them. I told them to contact them and find out what 
type of supplies were needed in that area there on the MS side 
as well, and then I contacted the Executive Director of the 
Coalition for Citizens with Disabilities up in Jackson.
    Chairman Ney. Last question I wanted to ask of Ms. 
Shantrell Nicks. What is this--I do not want to take time from 
other members, but elaborate a little bit on what you said 
about this site, your site. Oh, I am sorry--Rev. Williams.
    Rev. Williams. The property, this 20 acres is located right 
north of Pass Christian. We had the vision some years ago, in 
1999 when we bought the property, that we would build houses 
there for that community, not knowing that Katrina would come. 
This is a small church, we are talking about 135 members, but 
what we need is financing in order that we can do the 
infrastructure.
    Chairman Ney. Oh, I am sorry, it was the site where the 
government said something to you about calling the President, 
what was that?
    Ms. Nicks. Okay.
    Chairman Ney. Did you contact him?
    [Laughter.]
    Chairman Ney. He does not call me back either, do not feel 
bad.
    Ms. Nicks. I went to the Bechtel site on Menge Avenue, 
which they are I guess the place that the FEMA trailers are 
being brought into and delivered. That is the I guess 
headquarters or whatever.
    Chairman Ney. So this is not where people are living, this 
is where they are stored.
    Ms. Nicks. And I wanted to go there and find out if they 
had some type of priority or any type of list for handicapped 
people because I knew of two handicapped people that did not 
have a place to live. And I merely drove up to the site, tried 
to find out where the office was, who did I need to talk to--
``Ma'am, leave. If you have any questions, talk to President 
George Bush, that is who my boss is.'' And escorted off the 
property.
    Chairman Ney. Thank you. I am going to move to our ranking 
member in just a second, but I just wanted to make a couple of 
comments.
    I appreciate, and we all do, you thanking us for coming 
here. We appreciate the thank you's and warm hospitality but we 
wanted to be here. I am from Ohio and we have people who have 
come to Ohio, people who are, you know, temporarily relocated 
there. I hope they can come home to their areas. Some people 
were not given options, they were not given the option of 
staying in the area or given the option to come to Ohio. If 
they gave me the option--well, New York City is great to visit, 
but if you give me the option to move there, I will not do it, 
I want to stay where I live in my State.
    But, you know, you have made a good point. I think this 
panel, us having the ability to come here and get this elevated 
even within the Congress, I think it is a good thing because 
people need help. So we are happy to be here.
    The other thing I wanted to stress to you is please, if you 
see things, do not assume we know. If there are things that are 
going right and you want to tell us about it so we can utilize 
it in other disasters to help people, that is great. But if 
there are things going wrong, do not assume that the members 
will know. You should contact your Congressman, call us. I just 
wanted to stress that. A lot of people say I know you know this 
has been going on with the housing, but we do not necessarily 
always know. So that will be helpful.
    And with that, I will go to our ranking member.
    Ms. Waters. Thank you so much, Mr. Chairman, and I want to 
take this opportunity one more time to thank you for organizing 
this hearing and bringing us here to the Gulf Coast. I have 
learned more in 2 days than I could have ever learned in 
Washington, D.C. And again, I think we are going to have to be 
the advocates for getting other Members to come so that they 
can see firsthand and hear firsthand.
    To all of you here on this panel, I want to say a word of 
thanks to all of you. You are the helping professions, you are 
doing the kind of work that people need so desperately and 
without the kind of organizations that you represent, the kind 
of advocacy that you represent, a lot of people would simply be 
dropped off of everybody's agenda. So I really appreciate who 
you are and what you do.
    For the veterans, I want to tell you, I did not realize 
until yesterday that I had not heard from the Veterans' 
Administration about what kind of help they were giving to 
veterans who were the victims of Katrina. In addition to my 
conversations with the VA, I have seen again we have got to put 
some attention, Mr. Chairman, on the contractors who have the 
responsibility for the trailers. It is outrageous that they do 
not have trailers designed for the handicapped. It is 
outrageous that you would have to cut the doors and build the 
ramps. These people are making a lot of money and it seems to 
me it should have been well designed in the contract and has 
not been. Mr. Chairman, we are going to have to see what we can 
do to alter and amend those contracts to make sure that they 
have special provisions for the handicapped in them.
    The other thing that I just did not realize until you 
brought it to my attention was the fact that when you move 
somebody, who pays for the transportation, who pays for the 
gasoline, who pays for the pots and pans and the other stuff. 
It is one thing to talk about providing for a trailer, but 
there is nothing in it. And if you have lost everything, what 
are you supposed to do. I get it--I get it and I am going to 
work with my chairman and my members to do everything I 
possibly can to deal with those issues.
    I also realize that in our anxiety and in our attempt to do 
something about getting some assistance to those who perhaps 
did not have flood insurance, I think, Mr. Chairman, we tried 
to do something about using this as an opportunity to provide 
quality housing, low income housing on an ongoing basis, I 
really did not think about what was being done at the time we 
have been trying to address these issues about all the money 
that was going to be needed for the replacement of housing for 
public housing. That is a lot of money that needs to be dealt 
with. So we are going to have to really take a look at the 
budgets for HUD, to talk about where the money is going to come 
from for replacing all of these units.
    To the faith-based community that has been represented by 
you people here, I have a special appreciation for what you 
shared with us. Many of us are deeply rooted in our faith, many 
of us do not talk about it, many of us grew up in Sunday 
School, 11:00 service and then we had to go back at 6:00 just 
like you do. We know the church. I want to tell you, we depend 
a lot on the church, and right after Katrina, while I was not 
in Mississippi, I was in Louisiana and I went to Alexandria, 
Lafayette, New Iberia, Opelousas, all these places, and I saw 
the church-based community, the faith-based community, 
responding without anybody asking them to, without having any 
money from government. They opened their shelters on their own. 
As far as I am concerned, many of them far outdid what the Red 
Cross was doing. And even for those Red Cross shelters that 
were being run, I saw the faith-based community bring the meals 
in every day to feed people in the shelters. In one of the 
cities that I was in, they had one of the biggest shelters, 
over 3,000 people that were being fed by the faith-based 
community every day.
    So we do appreciate you. And I do not want you to think 
that you are not at the table, you are at the table in more 
ways than one, but I wanted to leave you with this. You have a 
Governor here who supports, through public policy along with 
the President, the faith-based initiative. I do not want you to 
lose sight of that. I want you to make him perform because this 
has been a big platform of this Administration and I want those 
who are in the faith-based community to engage your Governor 
and elected officials about faith-based initiatives so that you 
can make sure you have the technical assistance to respond to 
requests for proposals that will help in many of these areas.
    Enterprise, you are doing exactly what is needed to be on 
top of contractors. Most people, even if they had the money, do 
not know how to maneuver the complications of getting the 
contracting done without getting ripped off and I commend you 
for that.
    It seems to me that Habitat for Humanity ought to be 
getting together with Rev. Williams. You told me and told us 
you need some property on high ground. They have got 20 acres 
and it seems to me there ought to be some networking here to 
talk about how to utilize it because what Rev. Williams needs 
is some developers and she needs somebody to help put together 
all of those entities, a combination of Section 108, CDBG, HOME 
funds, etc., developers to get together to talk about how to 
utilize that property for the benefit of low income housing, 
how to make it work for the church.
    We goofed on CDBG. We are big supporters of CDBG but 
somehow after it left us I believe--that is what staff is 
telling us--somebody manipulated something in order to redirect 
CDBG away from those entities that would normally have it come 
directly to the cities and to give the State and this authority 
that you guys are alluding to, the power to be in control; and 
Mr. Cleaver, who is on this panel, has been talking a lot about 
that yesterday and today, and it is on our radar screen and I 
know that Mr. Cleaver is going to take some leadership and I am 
also, Mr. Chairman, and others, to see what we can do about 
addressing the concerns for the way that CDBG money has been 
fashioned for Katrina rather than the traditional way that it 
is dealt with, you know, normally as CDBG is allocated to the 
cities and all of the oversight, etc. Mr. Taylor certainly is 
going to have to take a leadership in taking a look at this to 
make sure that you are taken care of properly.
    Let me just say to Ms. Nicks, as an attorney, you come here 
with the kind of knowledge and expertise that is so desperately 
needed by many of our communities, who do not know how to 
respond to requests for proposals, who do not know how to 
navigate the system and deal with Section 108, CDBG, etc. I do 
not know how you handle your profession and your career and you 
have to make a living, but I am hopeful that everybody sitting 
around this table, that you will get together. All of the 
agencies that are concerned about the poor, about the 
handicapped, about the minorities, etc., would form a 
coalition. You will have a lot of power--churches and faith-
based communities working with non-profits, etc., form a 
coalition and identify where you are going to go to work and 
how you are going to use your funds, and allocate some of those 
dollars to someone that you can place on line for you to help 
get some of this work done. You have indicated that you are 
willing to use your time and effort for the least of these. You 
cannot do that without some kind of funding, and I think a 
collection of these organizations could help to provide the 
ability for you to do this so that you ought to focus on how to 
access some of the dollars that are already in the pipeline.
    We are going to spend some time on FEMA to do some of the 
work that you have been trying to do that I do not think even 
takes legislation in dealing with the handicapped, etc. But 
there is other work that has to be done to ensure that there 
are ongoing efforts to provide low income housing and the kind 
of work that really is going to have to be targeted and 
attention paid to and someone is going to have to be funded to 
do it.
    Let me just close by saying you have got a great advocate. 
I want to tell you that Congressman Taylor is a hands-on 
Congressman, who was out here on the streets, in the trenches 
helping to feed people, helping to guide, helping to direct. He 
does not wait for anybody to tell him what he can do, he 
empowers himself and he just goes out there despite whatever 
obstacles there are to get rid of them and to get it done. Work 
with him--work with him and help him to understand how he can 
be even more effective in the work that he must do.
    You have educated us here today and we leave here with a 
long list of things that we think we can be helpful with. And I 
want you to know that we are not adverse at all to churches and 
the faith-based community. Some people talk a lot about their 
faith and you see a lot of politicians sometimes talking about 
how much they love God, etc. But the proof of the pudding is in 
the eating. And those who talk the talk, they have to then walk 
the walk, all right?
    Mr. Cleaver. Amen.
    Ms. Waters. All right. So you may not hear some of us 
ranting and raving about it, but we do the work and I want you 
to use your power now because there is a lot of talk in 
Washington about the faith-based community and I want you to 
use your power and get together in the faith-based community 
and interact with those who are talking about it a lot and make 
sure that in their talking, in their prayers, that they bring 
the bacon home. Okay?
    Thank you very much.
    [Applause.]
    Chairman Ney. We thank Ranking Member Waters for her time 
and attention to all these issues. And I thank the Congressman 
for hosting us here in your community. We will hear from you.
    Mr. Taylor. Thank you. Well, again, I want to thank my 
colleagues. I want to thank this panel. You have not quite 
covered the waterfront, but you have covered almost everything. 
I am sure everyone in this room can share their own stories of 
what they went through and what they have done to help out. I 
want to thank each of your groups.
    Mr. Davis, a quick story. We lost a National Guardsman the 
night of the storm on a search and rescue mission. I attended 
his funeral the Monday after the storm. Somehow, in the 
aftermath of the storm, this boy was lost. His funeral was a 
week to the day from the storm up in Purvis. And one of the 
things I remember from passing out MRE's is people would come 
to me and say do you have any baby formula. Of course we did 
not, all we had was MRE,s at the time. So when I attended the 
soldier's funeral in Purvis, I stopped by the Wal-Mart and 
picked up as much baby formula as I could afford. I remember 
going to Enunciation Church--now this a week to the day from 
the storm. Tuesday, Wednesday, Thursday after the storm, people 
were begging for baby formula. A week to the day from the storm 
at Enunciation Church, I show up and said I have baby formula, 
expecting everybody to go great stuff. They showed me literally 
rooms of baby formula that had been donated by this time.
    So of course, the faith-based community is wonderful and we 
cannot thank them enough. But our Nation has to be there also. 
There is a place for both. In the immediate response, you just 
about have to order people to be there, get them away from 
their families.
    In the case of the Paralyzed Veterans, please do not take 
any offense to my absence, I got caught up in the hallway. And 
what is going to make you even madder and what is going to make 
you, Mr. Clark, even madder, if you went to Purvis today to the 
FEMA staging area where the trailers come in, I guarantee you 
there are between 600 and 800 ADA travel trailers and ADA 
capable mobile homes. And it makes my blood boil to know that 
they are there, sitting there while people in south Mississippi 
need them.
    And again, I am not on this committee, they were kind 
enough to let me sit in today and show them around, but that is 
a snafu that has somehow got to get fixed for our veterans, for 
our people with disabilities. It is just unacceptable that in 
this great country, that resource is sitting up there, the 
taxpayers have paid for that resource, but it has not been 
delivered to the people who can use it. That has got to get 
fixed, I blame Bechtel, I blame FEMA. That has got to get fixed 
and it has got to get fixed right now. So again, we are all 
aware of that, there really are ADA travel trailers, they just 
have not been delivered to the right folks.
    Mr. Russo, I hope you have listened to Reverend Williams, 
because once again, one of the things FEMA was talking about is 
finding a site where we can put trailers. Since you are 
offering, we sure as heck want to take you and your 
congregation up on that good offer and make sure that that is 
taken care of.
    But for all of you, thank you for everything you have done 
since the day of the storm; thank you for being here today; and 
on behalf of the people of south Mississippi, let me thank you 
for what you and your groups have done to help your fellow 
Mississippians.
    [Applause.]
    Chairman Ney. The gentlelady from California.
    Ms. Lee. Thank you very much. Mr. Chairman, let me first 
say to you how much I appreciate the opportunity and privilege 
to come, as a member of this committee, to really come and 
witness and listen and understand more fully, first of all the 
devastation that Katrina has reaped. But also the impact of the 
pain and the human suffering.
    And Mr. Chairman, I must say, and also to our ranking 
member, that had we not come on this visit and had we not 
conducted this field hearing, I would have wondered about some 
of the President's observations. I listened very carefully to 
his statements recently and I am wondering, and as I listened 
to all of you with regard to the issues, the fact that you are 
helping the most vulnerable restore their lives, helping them 
recover and helping them move forward; I am just wondering if 
those issues, he understands and knows as he goes back to the 
White House. Had we not come here, quite frankly, I would not 
be able to explain what I have learned and I would also not be 
able to more fully discuss with the White House some of the 
pain and suffering and impact that you all are addressing each 
and every day. So I really appreciate being able to personally 
see this and understand it more fully.
    I wanted to just mention a couple of things, with regard 
first of all to this issue of rental housing. I do not know how 
we are going to address it, Mr. Chairman, but when you have a 
community that has paid $500 to $700 for rent and now is 
required to pay $1,500, something is wrong, something is wrong. 
And I know they are going to say it is market forces working. 
But this is an emergency and this is a disaster and sometimes 
we have to figure out ways to allow market forces to work but 
also to make sure that the people are taken care of and making 
sure the people can afford to live in communities where they 
have grown up, and especially during and after such a disaster.
    I am not sure how this committee can weigh in on this 
issue. I remember that at one of our hearings in Washington, 
D.C., I asked about the rent gouging issue, which I had heard, 
but I believe the response was there cannot be rent gouging 
because we just will not pay but ``X'' amount of dollars in 
terms of HUD. So I am not sure how landlords are getting away 
with this, but this is something we are going to have to figure 
out.
    Also, earlier we heard from HUD, from Mr. Williams, that 
for the first time the homeless were receiving some form of HUD 
housing assistance. And I wanted to ask him in terms of the 
percentages of individuals here in Gulfport or in the Gulf 
region, how many people now were receiving that type of housing 
assistance who were homeless. But I want to close by just 
asking any of you if you have a handle on that, because you 
service and work with and help the homeless each and every day. 
Are you familiar with how they are being integrated now into 
the system in terms of the provision of HUD assistance for 
homeless individuals who, prior to Katrina, had not had those 
services and funds available to them? Anyone can answer that 
question if you know the answer, if you have had any experience 
with that.
    [No response.]
    Ms. Lee. If not, Mr. Chairman, I hope that as part of this 
record, we could ask HUD to let us know how this is working, 
how many individuals who, prior to Katrina, were homeless and 
how many now are receiving the assistance that they deserve but 
did not receive before Katrina.
    Chairman Ney. We will pose that question to HUD and give 
the response to you and all members.
    Ms. Lee. Thank you very much. And in closing let me just 
say once again I want to thank you for your service, your 
sacrifices, your commitment to the least of these, and your 
commitment to make sure that this recovery process is equitable 
in that process, the real issue of equal opportunity, equitable 
development and the issues of poverty are addressed in a very 
comprehensive fashion as we move forward.
    Thank you, Mr. Chairman, again.
    Chairman Ney. The gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman.
    I think, Mr. Chairman, it is appropriate at this point to 
quote Dr. King, ``injustice anywhere is a threat to justice 
everywhere.'' An injustice as it relates to persons who are 
handicapped is a threat to justice for every one of us in this 
room, because but for the grace of God, it could be any one of 
us in this room. And I assure you that we want to correct this 
problem with the trailers that you have called to our 
attention.
    I also want to say to the NAACP President, having been one 
for more than 10 years or approximately 10 years myself, Mr. 
President, there is some great work to be done because I have 
read reports and accounts of persons being discriminated 
against as they have been seeking housing. I understand from 
these accounts that persons will call in and if they sound a 
certain way, they are told--sound like they are part of one 
ethnic group--they are told that no housing is available. And 
then right afterward, another person calls, housing is 
available with a free TV.
    Now friends, we have come too far in this country to allow 
this hurricane, this natural disaster, to permit this kind of 
ugly behavior to manifest itself.
    Mr. President, you have got great work to do. I salute all 
of you and I beg that each of you take up the cause of justice, 
because again, injustice anywhere is a threat to justice 
everywhere.
    Thank you, Mr. Chairman.
    Chairman Ney. The gentlelady from California.
    Ms. Watson. I am Diane Watson from California, I sit on the 
International Relations Committee, so I want to thank the Chair 
and the ranking member for allowing me to sit in for two of the 
most informative visits that I have been on since I have been 
in Congress. We travel the world on our committee and this time 
last year, we went into the region where they had the tsunami. 
I did not see any more disaster there than we found here along 
the Gulf Coast.
    And what is troublesome to me is that we are spending 
billions and billions of dollars, 10-, 11-, 12,000 miles away, 
and we are not making the necessary investment here in our own 
homeland. There are several problems that we are able to 
identify because we came here and we listened, we heard and we 
saw. And number one is, we must work, Mr. Chairman, to pull the 
Emergency Management Agency out from under Homeland Security.
    FEMA was created to be able to handle and expedite 
emergencies. Now you are waiting 5 months for housing? The 
urgent need passed 4 months ago. And so whatever the 
bureaucracy is that is keeping the mission blocked, FEMA's 
mission, then we need to move it out of the way. And I think 
what has happened, we are concentrating on homeland security 
but the homeland seems to be thousands of miles away. So when 
we get back to Washington, we need to make that very strong 
suggestion.
    I also, Mr. Eide, with your Enterprise Corporation of the 
Delta, I think you have got all the elements that we would need 
as a prototype. And I would hope that you would give us an 
outline of how you do it here in Mississippi and send it to the 
Chair, because my colleague, Ms. Lee, has been talking about 
psychological counseling. People who experience these disasters 
are traumatized and I know we have adopted a family in Los 
Angeles, because we have over 8,000 evacuees within the City of 
Los Angeles, a lot of them in my district. So we adopted one 
family and the brother came back here to assess the damage to 
the property and had a nervous breakdown and was taken to 
Texas. And we finally--he became withdrawn and depressed and he 
still is that way. So the counseling services that you 
mentioned are very much needed as a package when we talk about 
enterprise. So thank you so much, and if you could outline and 
send it in, we would appreciate it.
    And then a question to Derrick Johnson and Shantrell Nicks. 
As I listened to your testimony, did I hear a tinge of racism? 
You know, I am really bothered by the fact someone told you to 
talk to the President. Well, a few days ago, you could have 
found him over in Louisiana because he has said publicly that 
things are going--we are making progress. Well, I do not think 
he is well informed because I have not seen the kind of 
progress that we should have been making 5 months later.
    So I would like each one of you to elaborate again on just 
what you found in the process of trying to set some programs 
and restore people's lives in housing. Shantrell, I was 
interested in what you said and then if you could just make a 
comment, Mr. Johnson.
    Ms. Nicks. In reference to--my major concern is the 
insurance companies not being regulated or not being forced to 
respond to people being insured, people receiving adequate 
payment for their loss.
    The other thing is in reference to the incident at the site 
on Menge Avenue where the FEMA trailers are being delivered 
from, it was very hostile. I am African-American and the person 
that I was speaking to was a Caucasian male.
    Mr. Taylor. They are rude to everybody.
    [Laughter.]
    Mr. Taylor. I want you to feel better, they are rude to 
everybody.
    Ms. Nicks. I could not believe it. I mean I was just simply 
trying to ascertain where was the office, do you have some type 
of list for handicapped people. And they would not answer any 
question other than speak to the President, speak to George 
Bush, he is my boss.
    Ms. Watson. Would you mind--and I will leave my card with 
you--sending me the identifying information on this person, 
where this person was located, his name and so on? I would like 
to ask the committee to write him a letter and we need to 
inform them what is happening in the field. We need to inform 
our colleagues.
    Ms. Nicks. Ms. Watson, I do not have the name, I have a 
location and the corporation.
    Ms. Watson. All right, that is good enough.
    And Mr. Johnson, if you would like to make a comment.
    Mr. Johnson. In talking about racism, one of the things we 
found was immediately following the hurricane, that the 
response in the African-American communities was not as rapid 
as other communities. But we further learned that the response 
in poor communities, black or white, was not as rapid as it 
should have been. In every site we set up to distribute food 
and other items, at no time did we find poor whites--working 
class poor whites and Vietnamese communities, particularly 
Biloxi, the very first day when people were lined up for food, 
it was the whole area, because they were completely left out. 
What you find in the area is shrimpers and casino workers and 
retired individuals. As we moved around, in every area where we 
set up, we found the same situation. It is one in which working 
class Mississippians and black Mississippians are left out. And 
the affluent are often catered to more often with subsidies 
that were intended for working class minorities and low income.
    For example, in the HUD waivers moving forward, there were 
requests and HUD waived or suspended a requirement for 
replacing low and moderate income building units that were 
damaged or demolished after the hurricane. That would 
disproportionately affect African-Americans but it would 
disproportionately affect low income individuals. And that is a 
waiver that HUD provided.
    In the actual legislation, there was a waiver to use CDBG 
funds at 70 percent for low and moderate income individuals, it 
went through legislation and it was reduced to 50 percent and 
there was some discretionary language there for the head of HUD 
to lower it a little bit lower.
    That is where we will find the discrimination. Not only by 
race, but by working class individuals in this area. 
Mississippi is a poor State and one of the things we are 
finding is those who vote for certain groups of individuals 
oftentimes are left out. And you will find on the Mississippi 
Gulf Coast individuals who either do not vote or vote mostly 
for a particular party of individuals, you will find them with 
fewer resources.
    The fear with the Executive Branch administering all the 
CDBG funds with no oversight is those who do not vote or those 
who do not vote for a particular party will be left out. This 
past Monday, we had a convening before the Governor of field 
experts to talk about legislation for our legislature. One of 
the things that we are seeking to do is track where money goes 
from the CDBG fund by census tract so we can see who is 
actually getting the money, who is benefitting, to ensure that 
there is some equity in how the funds are distributed.
    We introduced approximately 12 pieces of legislation for 
oversight with our State legislature. I do not know if that is 
going to get passed. That is why it is imperative for this body 
to also track. Because we may find out that the Vietnamese 
community is being left out, black people are being left out 
and just working class white folks are being left out.
    Ms. Watson. Your representative Gene Taylor, the 
representative from this area, is very knowledgeable and 
sympathetic to what is going on. He calls this an equal 
opportunity disaster, but what we are learning is that the 
Emergency Management Agency is not addressing it as an equal 
opportunity need for resources. And that is very, very 
troubling to me. I think FEMA has really messed up and we need 
to do something about it.
    And I am sure with the good graces of the Chair, who has 
shown a great amount of compassion as we have gone through the 
streets in New Orleans and we went along the Gulf Coast earlier 
this morning, I am sure that he will take the lead.
    And I just want to say in closing that we really appreciate 
all of you coming and expressing your views on not only Katrina 
but the aftermath and the way we are doing our job. Please do 
not hesitate to write us, e-mail us, fax us, or call us. And 
particularly Mr. Taylor, because he understands what needs to 
be done. Let him know. We are out here in the field, but there 
have only been 55 Members of Congress, 345 Members make the 
decisions, and they ought to come down here and see for 
themselves. I had no idea the handicapped, and maybe the 
mentally ill, the disabled were not being specifically cared 
for. I had no idea--well, we heard some rumors about the 
insurance companies and the way they are defining what is 
covered by flood insurance and what is wind borne. And I think 
it is absolutely ridiculous, but we do not know these things 
until we come here and hear it from you. So do not fail to 
write us.
    I like what the faith-based community is doing, they come 
on board immediately, you do not have to ask them, they are 
there. And so what we need is for you to keep us informed. In 
my area, we suffer from earthquakes, we suffer from drought, we 
suffer from fires and we had to really put the pressure on our 
own Governor when we had a major fire in my area, to come down 
and observe. They just did not--they ignored the area, and we 
had hundreds of thousands of dollars worth of damage. But until 
people come and see, they do not get impacted the same way.
    So I thank all of you for being here today, for informing 
us. Trust us, we are going to take this information back to 
Congress and I hope we can improve on our housing needs plus 
overall on our disaster response.
    Thank you so very much, Mr. Chairman, for letting me sit 
in.
    Chairman Ney. I thank the gentlelady.
    Also, Mr. Green, without objection, submitted for the 
record some additional material by Mr. Rodger Clark.
    And to close today, our distinguished member from Missouri, 
Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. Thank all of you for 
coming, particularly Dr. Brenda Matthews, who lives here in 
this community but was a principal in our community in Kansas 
City before coming back to her birthplace. I appreciate the 
opportunity to just share with you--I too would like to commend 
the faith community, you do what you are supposed to do. It is 
a little weird to say thank you to a group that is doing what 
they are supposed to do. That is what we do.
    I am not so sure that we ought to be at the table with the 
government. Jesus not only would not go to the table, he turned 
it over. But I do think we have to be what we are, and that is 
what you have been doing.
    Let me heighten your paranoia about CDBG. In the National 
Housing Act of 1937, Sections 8 and 9 and the Cranston-Gonzalez 
Act, Fair Housing Act, not only are we supposed to do housing 
for the homeless but for AIDS victims as well. That is not 
being mentioned.
    Now I want to go further. The $11.5 billion that we 
approved, as Congressman Taylor mentioned, is a 60/40 break. 
Each Governor will get the money and I know there is a 
representative from the Governor's Office, I am not mad at you, 
I think that was a big mistake, it was a colossal mistake, it 
was something that we did not do when the legislation was 
approved.
    The reason it was a mistake--and every man in the country, 
I do not care if he is a Democrat or a Republican--opposes 
this. I used to be the President of the National Council of 
Black Mayors, the Governor of Louisiana is a Democrat, the 
Governor of Mississippi is a Republican, neither of them should 
be dealing with the money.
    First of all, in the legislation, not that we passed but in 
the regulations, 5 percent of those dollars will be taken off 
for administrative costs and that is millions of dollars. So 
that is 5 percent in Louisiana and 5 percent in Mississippi. 
Now in addition to that, in reading the regulations, there is 
no requirement for public hearing. I do not believe that we 
ought to deviate from the Federal regulations from HUD on these 
dollars. The public ought to be able to say what they want to 
do with those dollars. And the reason we do not want Governors 
to have it is because the local communities, the Mayor, the man 
who just left, he knows better what needs to be done in this 
community than the Governor. I am not mad at the Governor, I do 
not know him. This is an issue of trying to make sure that we 
get the maximum out of the dollars that we spend. These are 
taxpayer dollars and we ought to have this community involved 
in how those dollars are going to be spent.
    Now finally, having gone through this legislation--and let 
me explain this. I know this is going to make you not want to 
be involved with Members of Congress, but when we voted on 
this, this was in a Defense bill. It has nothing to do with 
defense, but this was in the Defense bill, it was the last day, 
and as my colleague mentioned, at 4:00 a.m. in the morning. We 
did not have a chance to read this. In fact, I am not even sure 
that it was written. Somebody stop me if I say something that 
is not right. I am not sure it was written. So what happened, 
the bureaucrats put this stuff together. We approved the money, 
the bureaucrats put it together.
    And in my estimation as a former mayor, this is not the way 
you deal with rehabilitating a community in a way that the 
public is involved in and in a way that is done quickly. And so 
my hope is that--I mean you are right to be concerned, Mr. 
President, State president of the NAACP, you are right to be 
concerned about CDBG. Now the State legislature does not do 
oversight, all grants over $25,000 are required to be audited, 
but in terms of the Mississippi legislature having oversight 
over these dollars, there is none, zero, zilch, nada.
    And so it means that frankly the money will be spent and 
unlike if it came to the city, the city council is held 
responsible for those dollars, or whatever it is called here, 
whatever the municipal bodies call it.
    I think there ought to be some concern by this committee in 
Washington. I do not know if it is too late for us to try to do 
anything or not. But if we cannot, at least I want the local 
community to understand the full gravity of the situation. And 
that is exactly what is going on. And I hope that you can rally 
the people and challenge what is going on so that it can accrue 
to the best interests of this community.
    I appreciate all of you coming. I hate to leave on a 
negative note, but I want you to be paranoid.
    [Laughter.]
    Mr. Cleaver. Thank you.
    Chairman Ney. Thank you. Without objection, the record will 
be left open for 30 days in case members of the committee would 
like to pose additional questions.
    Again, on behalf of the U.S. Housing Subcommittee, we thank 
you and God bless you for what you are doing for a lot of 
people down here who have had the toughest trauma of their 
lives. Thank you.
    [Whereupon at 1:12 p.m., the subcommittee was adjourned.]


                            A P P E N D I X



                            January 14, 2006


[GRAPHIC] [TIFF OMITTED] T7793.001

[GRAPHIC] [TIFF OMITTED] T7793.002

[GRAPHIC] [TIFF OMITTED] T7793.003

[GRAPHIC] [TIFF OMITTED] T7793.004

[GRAPHIC] [TIFF OMITTED] T7793.005

[GRAPHIC] [TIFF OMITTED] T7793.006

[GRAPHIC] [TIFF OMITTED] T7793.007

[GRAPHIC] [TIFF OMITTED] T7793.008

[GRAPHIC] [TIFF OMITTED] T7793.009

[GRAPHIC] [TIFF OMITTED] T7793.010

[GRAPHIC] [TIFF OMITTED] T7793.011

[GRAPHIC] [TIFF OMITTED] T7793.012

[GRAPHIC] [TIFF OMITTED] T7793.013

[GRAPHIC] [TIFF OMITTED] T7793.114

[GRAPHIC] [TIFF OMITTED] T7793.115

[GRAPHIC] [TIFF OMITTED] T7793.116

[GRAPHIC] [TIFF OMITTED] T7793.117

[GRAPHIC] [TIFF OMITTED] T7793.118

[GRAPHIC] [TIFF OMITTED] T7793.119

[GRAPHIC] [TIFF OMITTED] T7793.120

[GRAPHIC] [TIFF OMITTED] T7793.121

[GRAPHIC] [TIFF OMITTED] T7793.122

[GRAPHIC] [TIFF OMITTED] T7793.123

[GRAPHIC] [TIFF OMITTED] T7793.124

[GRAPHIC] [TIFF OMITTED] T7793.125

[GRAPHIC] [TIFF OMITTED] T7793.126

[GRAPHIC] [TIFF OMITTED] T7793.127

[GRAPHIC] [TIFF OMITTED] T7793.128

[GRAPHIC] [TIFF OMITTED] T7793.129

[GRAPHIC] [TIFF OMITTED] T7793.130

[GRAPHIC] [TIFF OMITTED] T7793.131

[GRAPHIC] [TIFF OMITTED] T7793.132

[GRAPHIC] [TIFF OMITTED] T7793.133

[GRAPHIC] [TIFF OMITTED] T7793.134

[GRAPHIC] [TIFF OMITTED] T7793.135

[GRAPHIC] [TIFF OMITTED] T7793.136

[GRAPHIC] [TIFF OMITTED] T7793.089

[GRAPHIC] [TIFF OMITTED] T7793.090

[GRAPHIC] [TIFF OMITTED] T7793.091

[GRAPHIC] [TIFF OMITTED] T7793.092

[GRAPHIC] [TIFF OMITTED] T7793.093

[GRAPHIC] [TIFF OMITTED] T7793.094

[GRAPHIC] [TIFF OMITTED] T7793.095

[GRAPHIC] [TIFF OMITTED] T7793.096

[GRAPHIC] [TIFF OMITTED] T7793.097

[GRAPHIC] [TIFF OMITTED] T7793.098

[GRAPHIC] [TIFF OMITTED] T7793.099

[GRAPHIC] [TIFF OMITTED] T7793.100

[GRAPHIC] [TIFF OMITTED] T7793.014

[GRAPHIC] [TIFF OMITTED] T7793.015

[GRAPHIC] [TIFF OMITTED] T7793.016

[GRAPHIC] [TIFF OMITTED] T7793.017

[GRAPHIC] [TIFF OMITTED] T7793.101

[GRAPHIC] [TIFF OMITTED] T7793.102

[GRAPHIC] [TIFF OMITTED] T7793.024

[GRAPHIC] [TIFF OMITTED] T7793.025

[GRAPHIC] [TIFF OMITTED] T7793.026

[GRAPHIC] [TIFF OMITTED] T7793.027

[GRAPHIC] [TIFF OMITTED] T7793.028

[GRAPHIC] [TIFF OMITTED] T7793.029

[GRAPHIC] [TIFF OMITTED] T7793.030

[GRAPHIC] [TIFF OMITTED] T7793.031

[GRAPHIC] [TIFF OMITTED] T7793.032

[GRAPHIC] [TIFF OMITTED] T7793.033

[GRAPHIC] [TIFF OMITTED] T7793.034

[GRAPHIC] [TIFF OMITTED] T7793.035

[GRAPHIC] [TIFF OMITTED] T7793.036

[GRAPHIC] [TIFF OMITTED] T7793.037

[GRAPHIC] [TIFF OMITTED] T7793.038

[GRAPHIC] [TIFF OMITTED] T7793.039

[GRAPHIC] [TIFF OMITTED] T7793.040

[GRAPHIC] [TIFF OMITTED] T7793.041

[GRAPHIC] [TIFF OMITTED] T7793.042

[GRAPHIC] [TIFF OMITTED] T7793.043

[GRAPHIC] [TIFF OMITTED] T7793.044

[GRAPHIC] [TIFF OMITTED] T7793.045

[GRAPHIC] [TIFF OMITTED] T7793.046

[GRAPHIC] [TIFF OMITTED] T7793.047

[GRAPHIC] [TIFF OMITTED] T7793.048

[GRAPHIC] [TIFF OMITTED] T7793.049

[GRAPHIC] [TIFF OMITTED] T7793.050

[GRAPHIC] [TIFF OMITTED] T7793.051

[GRAPHIC] [TIFF OMITTED] T7793.052

[GRAPHIC] [TIFF OMITTED] T7793.053

[GRAPHIC] [TIFF OMITTED] T7793.054

[GRAPHIC] [TIFF OMITTED] T7793.055

[GRAPHIC] [TIFF OMITTED] T7793.056

[GRAPHIC] [TIFF OMITTED] T7793.057

[GRAPHIC] [TIFF OMITTED] T7793.058

[GRAPHIC] [TIFF OMITTED] T7793.020

[GRAPHIC] [TIFF OMITTED] T7793.021

[GRAPHIC] [TIFF OMITTED] T7793.022

[GRAPHIC] [TIFF OMITTED] T7793.023

[GRAPHIC] [TIFF OMITTED] T7793.059

[GRAPHIC] [TIFF OMITTED] T7793.060

[GRAPHIC] [TIFF OMITTED] T7793.061

[GRAPHIC] [TIFF OMITTED] T7793.062

[GRAPHIC] [TIFF OMITTED] T7793.063

[GRAPHIC] [TIFF OMITTED] T7793.064

[GRAPHIC] [TIFF OMITTED] T7793.065

[GRAPHIC] [TIFF OMITTED] T7793.066

[GRAPHIC] [TIFF OMITTED] T7793.067

[GRAPHIC] [TIFF OMITTED] T7793.068

[GRAPHIC] [TIFF OMITTED] T7793.069

[GRAPHIC] [TIFF OMITTED] T7793.070

[GRAPHIC] [TIFF OMITTED] T7793.071

[GRAPHIC] [TIFF OMITTED] T7793.072

[GRAPHIC] [TIFF OMITTED] T7793.073

[GRAPHIC] [TIFF OMITTED] T7793.074

[GRAPHIC] [TIFF OMITTED] T7793.075

[GRAPHIC] [TIFF OMITTED] T7793.076

[GRAPHIC] [TIFF OMITTED] T7793.083

[GRAPHIC] [TIFF OMITTED] T7793.084

[GRAPHIC] [TIFF OMITTED] T7793.085

[GRAPHIC] [TIFF OMITTED] T7793.103

[GRAPHIC] [TIFF OMITTED] T7793.104

[GRAPHIC] [TIFF OMITTED] T7793.105

[GRAPHIC] [TIFF OMITTED] T7793.106

[GRAPHIC] [TIFF OMITTED] T7793.107


</pre></body></html>
